<html>
<title> - SOMALIA'S CURRENT SECURITY AND STABILITY STATUS</title>
<body><pre>[Senate Hearing 115-757]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-757

            SOMALIA'S CURRENT SECURITY AND STABILITY STATUS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON AFRICA AND
                          GLOBAL HEALTH POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2018

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-831 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




                   SUBCOMMITTEE ON AFRICA AND        
                      GLOBAL HEALTH POLICY        

                 JEFF FLAKE, Arizona, Chairman        
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
JOHN BARRASSO, Wyoming               CHRISTOPHER A. COONS, Delaware
JOHNNY ISAKSON, Georgia              TOM UDALL, New Mexico
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Flake, Hon. Jeff, U.S. Senator From Arizona......................     1

Booker, Hon. Cory, U.S. Senator From New Jersey..................     2
    Prepared statement...........................................     2

Hashi, Abdirashid, Executive Director, Heritage Institute for 
  Policy Studies, Mogadishu, Somalia.............................     4
    Prepared statement...........................................     5

Bacon, Dr. Tricia, Assistant Professor, American University's 
  School of Public Affairs, Alexandria, Virginia.................     8
    Prepared statement...........................................    10

Yarnell, Mark, UN Liaison and Senior Advocate, Refugees 
  International, Washington, DC..................................    13
    Prepared statement...........................................    15

Hogendoorn, Dr. E.J., Deputy Program Director, Africa, 
  International Crisis Group, Washington, DC.....................    20
    Prepared statement...........................................    22

              Additional Material Submitted for the Record

Responses of Dr. Tricia Bacon to Questions Submitted by Senator 
  Cory 
  Booker.........................................................    36


                                 (iii)

  

 
            SOMALIA'S CURRENT SECURITY AND STABILITY STATUS

                              ----------                              


                       WEDNESDAY, MARCH 14, 2018

                               U.S. Senate,
   Subcommittee on Africa and Global Health Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
Chairman of the Subcommittee, presiding.
    Present: Senators Flake [presiding], Young, Booker, and 
Merkley.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Subcommittee on Africa and Global Health will come to order.
    We thank the witnesses for coming. I know it is difficult 
getting in the building this morning and a cold outside wait. 
So thank you.
    Somalia is often used as an example of a failed state, but 
the reestablishment of a federal government and subsequent 
elections have created hope for a change there in Somalia. In 
his visit last week, the Somali Prime Minister described his 
country as being at a period of opportunity where it could turn 
the page or it could backslide.
    Senator Booker and I are holding this hearing to 
demonstrate the interest of the United States in helping 
Somalia to turn that page. For Somalia and the surrounding 
region, U.S. interests abroad, the stakes are simply too high 
to let the country backslide.
    Terrorism remains a real threat. Al-Shabaab was named the 
most potent threat to U.S. interests in East Africa by our 
intelligence community last year, and ISIS also remains a 
factor in Somalia.
    The Somali National Army will eventually take over from 
AMISOM, but that force remains disorganized and faces serious 
readiness challenges despite receiving ongoing assistance and 
support from the United States. Despite these challenges, 
AMISOM is proceeding with plans to draw down its troops by 
2020.
    Basic governance also remains the challenge for the Somali 
Government which cannot yet provide services to its citizens 
like roads and access to schools and hospitals.
    In short, the situation in Somalia remains tenuous, and has 
not been helped by offensive rhetoric emanating from the White 
House, a long freeze of admission of refugees from Somalia, and 
prohibitions on Somali travel to the United States.
    The purpose of this hearing is to review the situation in 
Somalia and examine how U.S. policies can best support peace 
and stability in Somalia.
    With that, I will turn it over to Senator Booker for his 
opening statements, and I appreciate his encouragement to hold 
this hearing and we are very interested in what is going on. So 
thank you.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I want to submit my formal opening 
statement for the record.
    I am really looking forward to this conversation. I am 
grateful for the leadership of Senator Flake on these issues.
    I have a lot of very pressing concerns. We have extreme 
challenges right now with our diplomatic efforts in Somalia. I 
was very taken by the fact that we had our Secretary of State 
in the midst of a very important trip to the continent of 
Africa, having that trip undercut by continuing disorder, chaos 
within our diplomatic corps. I am concerned that we do not have 
an ambassador placed here. I am concerned that at a time where 
we have a region in instability, we do not have an overall 
strategy everywhere from Syria to Yemen. We have proxy wars and 
competition going on that are deeply affecting this area. We 
have a state that is showing signs of progress but still ranked 
as one of the most corrupt states in the country. There are a 
lot of really pressing issues, not to mention the security 
concerns we have and, frankly, something that Senator Flake has 
been a leader on, along with some of my colleagues, about just 
under what authorization are we using military force, who are 
we targeting, and again under what authorization.
    There is so much within this topic that not only deals with 
a real crisis, a humanitarian crisis, a security crisis, but 
also with larger themes and larger issues that are affecting 
the globe as a whole and American security overall.
    I read each of your testimonies with great appreciation, 
what you prepared for us in a written way, but I am really 
looking forward to this conversation. There is a lot going on 
in Washington today, and he and I are both split between 
numerous committees, I believe a very pressing conversation 
about gun violence in our country. But this is so important and 
America's role, as you all know, is essential, especially at a 
time that China's influence is rising in that region. So let us 
get to the conversation.
    But, again, I am just so grateful to my colleague and 
friend, Senator Flake, for hosting this committee hearing.
    Thank you, Chairman Flake for holding this hearing and 
thank you to the witnesses for being here today. I look forward 
to your testimonies.
    [The prepared statement of Senator Booker follows:]

                  Prepared Statement of Senator Booker

    Chairman Flake, thank you for holding this hearing and thank you to 
the witnesses for being here.
    Before I turn to my prepared remarks, I'd like to spend a couple 
minutes on the President's firing of Secretary of State Tillerson.
    I have had serious concerns with the Secretary Tillerson's 
leadership at the State Department, especially the mass exodus of 
foreign service officers with decades of experience and his efforts to 
cut funding to the State Department.
    Yesterday's incidents, however, raise deep concerns about the way 
U.S. foreign policy will be made in the White House going forward. With 
Secretary Tillerson leaving the State Department, the President is now 
approaching major foreign policy concerns without a confirmed team in 
place.
    Negotiations with North Korea, an arbitrary, a self-imposed 
deadline to ``fix'' the Iran deal on May 12, and the opening of an 
Embassy facility in Jerusalem also in May await a State Department with 
Acting leaders at every level, and now at the highest level.
    My colleagues and I on this subcommittee were pleased to hear about 
Secretary Tillerson's official visit to some of our closest allies in 
Africa including Djibouti, Kenya, and Nigeria.
    That Secretary Tillerson was effectively removed from his office 
before even completing his trip is another troubling statement to the 
world, that the national security of the United States is subject to 
the whims of this President who demands unabashed loyalty over any 
dissent or competing views on, what the Chairman I'm sure would agree, 
are complicated matters.
    Now, to Somalia.
    The 2012 election of President Hassan (Ha-Sun) Shiekh Mohamud (Mo-
ha-mud), through an internationally supported process was a milestone 
in the country--the first time since the 1991 overthrow of President 
Said Barre (See-yad Bar-ay) that a new leader had been chosen inside 
the country.
    The subsequent election of current President Hassan Sheikh Mohammad 
aka ``Farmajo'' and the peaceful transfer of power has given the 
international community hope for a government that has crossed the 
threshold from failed to fragile state.
    Despite these hopeful signs, armed conflict persists with African 
Union troops fighting to liberate parts of the country still held under 
the brutal rule of Al-Shabab. In some areas, the humanitarian situation 
continues to deteriorate, compounded by restrictions on humanitarian 
access imposed by Al-Shabab, human rights violations by government 
security forces, and acute food insecurity.
    Cyclical droughts and violent conflict have caused mass 
displacement and Somalia remains one of the largest generators of 
refugees in the world. I fear that as humanitarian appeals get larger, 
the international community will lurch from crisis to crisis without 
taking stock of what can build long term resilience for the country 
such as anti-corruption efforts, youth employment, and inclusive 
governance.
    Finally, today in Somalia, over 500 U.S. military personnel are on 
the ground. DoD has publically acknowledged more than 30 strikes in 
2017, more than twice the number in 2016; and 10 times the number of 
strikes prior to 2015.
    As the committee that authorizes the use of force, it is important 
that we understand the scope of U.S. military operations in Somalia and 
its implications.

    Senator Flake. Thank you, Senator Booker.
    The subcommittee will now hear testimony from four 
distinguished experts on Somalia. Each brings a wealth of 
experience and all have rearranged their schedules to be here 
today. It is much appreciated, and I appreciated meeting a few 
of you in my office earlier last week. So thank you for coming 
there.
    We will hear today from Mr. Abdirashid Hashi, Dr. Tricia 
Bacon, Mr. Mark Yarnell, and Dr. E.J. Hogendoorn.
    Mr. Hashi is the Executive Director of the Heritage 
Institute for Policy Studies, an impressive think tank in 
Somalia. He has also served Somalia's Government in various 
roles, included in the offices of the Prime Minister and the 
presidency.
    Dr. Bacon is the Assistant Professor at American University 
and spent 10 years at the Department of State working on 
counterterrorism issues.
    Mr. Mark Yarnell is a Senior Advocate for Refugees 
International and has a background working on humanitarian 
relief issues.
    Dr. Hogendoorn is the Deputy Program Director for the 
International Crisis Group and has previously served as an arms 
expert with the United Nations Panel of Experts on Somalia.
    With that, we will recognize Mr. Hashi.

  STATEMENT OF ABDIRASHID HASHI, EXECUTIVE DIRECTOR, HERITAGE 
        INSTITUTE FOR POLICY STUDIES, MOGADISHU, SOMALIA

    Mr. Hashi. Good morning. Thank you very much for inviting 
me here today.
    I arrived from Mogadishu, Somalia. The situation in 
Washington is a bit complicated. Mogadishu is also as 
complicated. As I slept last night, there are ongoing efforts 
to unseat the speaker of the Somali parliament and also to 
actually unseat the cabinet. So we have situations everywhere.
    Sir, when I talk about Somalia, I always like to bring to 
the attention of my audience that the situation of Somalia 
needs to be taken into context. Somalia is a country that for 
25 years or more was a failed state, and even now it is 
described as a fragile context. So it hovers, it oscillates 
between fragility and a failed state.
    And the reasons Somalia is like that are many, but I would 
like to just mention four. I have sent to you a written 
statement that outlines our views about what is going on in 
Somalia.
    But the four main reasons why we have the situation we have 
in Somalia is, number one, the ongoing insurgence of Al-
Shabaab. The last 10 years al Qaeda-affiliated, very 
determined, strong, well-resourced insurgency is trying to 
infanticide the Somali institutions that are very fragile. And 
thus far, the efforts of the Somali Government, the African 
Union and the international community was not able to put an 
end to the Al-Shabaab problem.
    The second reason Somalia is the way it is, is the absence 
of enough effort among the Somalis and the Africans and the 
Arab countries and the international community to also fix this 
failed state. It is like asking somebody to go to Mars with 
gadgets they get from the dollar store. The efforts Somalia 
gets from the investments in the last 12 years is equal to 
expecting somebody to go to Mars with the stuff they get from 
the dollar store. It has been never enough. And I can just give 
you one single example. The budget of the Somali Government now 
this year is $270 million. The entire Somali Government budget 
is $270 million. But it needs about $3 billion to create 
opportunities for the Somali young citizens, about 70 percent 
of the population, to deal with Al-Shabaab, and to provide 
services. So sometimes, although everybody knows, the limited 
resources this government gets or is able to generate within, 
still we expect this government to act like a government and to 
provide service to its citizens.
    The third problem we have in Somalia is the mediocrity, 
unfortunately, of our politicians. Whenever we get an 
opportunity to move things forward, our politicians end up 
unnecessarily political infightings which is going on in 
Mogadishu today where the MPs who just came from recess are 
trying to unseat the speaker and the prime minister and 
everybody, and that hampers the energy of the Somali people who 
have suffered a lot and want to fix their country. And also it 
actually affects the energy and the interests of the 
international community.
    Finally, one of the biggest problems we face in Somalia is 
the meddling of external actors, sometimes for geopolitical 
reasons. Now the Gulf crisis is actually unraveling Somalia 
because certain different quarters with the Somali political 
elite are siding with one country or another, and that is 
actually reverberating the entire system. And this creates 
regression and it creates a lot of problems.
    Having said that, everything is not doom and gloom in 
Somalia. There is a lot of ongoing efforts to the extent that 
the Somali think tank is coming to Washington to talk about 
Somalia and the government is doing its best. The citizens are 
doing their best.
    And also, unless those four items are dealt with, 
especially the Somali politicians, unless they get their acts 
together, all the other problems will just increase.
    And since I have 5 minutes, I think maybe I should just 
stop there, and I am happy to answer your questions. Thank you.
    [The prepared statement of Mr. Hashi follows:]

                    Prepared Statement of Mr. Hashi

    Mr. Chairman, Ranking Member and Distinguished Senators: Thank you 
very much for inviting me to testify at this important and timely 
hearing on Somalia. Working inside and outside the Somali government 
has given me a unique opportunity to closely observe the challenges and 
opportunities in Somalia and possible ways to advance the country's 
elusive peace and state building agenda.
    For the past 3 years, I have been the Executive Director at the 
Heritage Institute for Policy Studies (HIPS)--Somalia's first think 
tank. Prior to that, I served as Secretary to the Council of Ministers, 
Deputy Chief of Staff at the Prime Minister's Office, Communications 
Director for the Somali President and as a Cabinet Minister responsible 
for Public Works and Reconstruction (2010/11).
    I flew in from the capital Mogadishu, where I have lived for many 
years, to share what Somali researchers and civil society think should 
be done to help our country stand on its own two feet.
                          context is important
    Somalia has experienced more than a quarter of a century without 
functioning and effective state institutions. This is an unprecedented 
and unique situation and presents multifaceted and manifest challenges. 
Failure to appreciate the prolonged failed nature of the Somali state 
and its fragility could result in a misdiagnosis of challenges, a waste 
of resources and even an exacerbation of the current problems. There 
are many causes for the slow pace of progress, stagnation or at times 
regression of Somalia's march to recovery. However, four significant 
challenges represent a clear impediment to peace building and state 
building in this troubled Horn of Africa country.
    First, one of the most organized and deadly insurgent groups--the 
Al-Qaeda-affiliated Al-Shabaab--has been working hard to destroy the 
nascent Somali institutions. Al-Shabaab has not succeeded but has 
blocked meaningful progress for over a decade now. Moreover and more 
relevant for our discussion, unless a change of strategy is quickly 
adopted, another Somali expert will be sitting in front of this 
committee five years from now talking about missed opportunities.
    The second reason why Somalia is hovering between being a `failed 
state' and its current designation as a `fragile state' is the 
conspicuous absence of the essential resources needed to put the 
country back on its feet. For starters, let's consider the national 
budget of the federal government: about U.S. $270 million a year, over 
99 percent of which is spent paying salaries of civil servants and 
security personnel. At a minimum, the government would need roughly 
U.S. $3 billion a year to implement its own National Development Plan. 
With such meager resources, the government can't deliver rudimentary 
services, let alone defeat Al-Shabaab or win the hearts and minds of 
Somalia's massive unemployed youth population, which is estimated to be 
70 percent of the estimated 12 million citizens.
    Landing a man on Mars with equipment sourced from a Dollar Store is 
more realistic than expecting Somalia to have a functioning state with 
its current resources, financial or otherwise. The government is trying 
to expand its revenue base, but it will take years to realistically 
levy taxes on all of its 18 administrative regions. It only controls 
the capital Mogadishu, and the rest is in the hands of federal member 
states (and Somaliland which considers itself as a separate state). The 
regions jealously guard their sources of revenue such as ports and 
airports. Somaliland has just transferred 70 percent of the Port of 
Berbera to UAE's Dubai World port management company and the government 
of Ethiopia--against the objections of the Somali government. On 12 
March 2018, parliament banned Dubai World from Somalia and labeled that 
deal as null and void and a blatant breach on Somalia's sovereignty. 
This could further complicate the already frozen Somalia-Somaliland 
talks on unity/secession issues and may also put the fledgling Somali 
government and the UAE on a collision course.
    Thirdly, genuine political inclusivity remains elusive. A winner 
takes all mentality reigns throughout the country, creating deep 
political instability. In a country where political and social 
reconciliation remain a work in progress, Somalia's elite has failed to 
rise to the occasion and unite against the common enemy--Al-Shabaab. 
Instead, they routinely spend much needed resources and energy on 
political infighting. They have also failed to capitalize on elections 
which bring fresh opportunities to create an environment conducive to 
stability in the form of inclusive political dispensation. Regrettably, 
each new leadership makes the exact same mistakes and spends the next 4 
years fending off political rivals, instead of facing off against Al-
Shabaab.
    The fourth reason why Somalia's recovery is slow--and often goes 
dangerously into reverse--is the meddling of external actors with both 
benevolent and malevolent intentions. Interference by others has 
ceaselessly muddied Somalia's already troubled waters. The negative 
energies emanating from both state and non-state actors can be as 
damaging as the mischief and mediocrity of Somali politicians and the 
mayhem of Al-Shabaab. For instance, during elections, money from 
overseas and local powerbrokers is used to unseat some politicians and 
install others. All candidates openly dole out cash to win elections. 
Meanwhile, the Gulf crisis is playing out dangerously in Somalia. If 
the negative impact of the dispute between UAE and Qatar is not 
checked, it could easily destroy all the gains made thus far and will 
eventually strengthen Al-Shabaab's hand. Petrodollars should be used to 
avert starvation in Somalia--not to put this fledgling country in the 
middle of a geopolitical power play.
    It is because of these profound challenges that it is possible to 
argue in one sentence--however contradictory or confusing it may 
sound--that that the situation in Somalia is paradoxically good, bad 
and ugly all at the same time.
                          reasons for optimism
    Having listed the litany of challenges, I want to emphasize that 
Somalia's situation is not only one of doom and gloom. The fact that a 
representative of a Somali think tank is in the Dirksen Senate Office 
Building speaking with distinguished U.S. Senators about Somalia is, in 
itself, a positive sign.
    Most Somalis believe Al-Shabaab are on the wrong path and the wrong 
side of history and are not afraid to align themselves with their 
government at the national and regional levels.
    Diaspora Somalis are returning to look for opportunities in their 
homeland and ways to contribute to the nation building efforts. 
Businesses are investing and creating employment opportunities however 
meager. Citizens are joining forces to avert famine and arrest drought 
induced crises. The national and regional governments are learning to 
work together. The federal government is strengthening key state 
institutions such as the capacity of the ministry of finance. 
International actors including the U.S. and Turkey are making an impact 
on the security and development fronts.
    Other tangible progress includes:

  <bullet> The establishment of national and regional institutions, 
        however skeleton in nature
  <bullet> International engagement and interest in Somalia
  <bullet> The near completion of the federating process of the country
  <bullet> Civil service salaries being paid
  <bullet> The establishment of the National Security Council (between 
        the center and regions)
                           causes for concern
    Despite the collective efforts of Somalis, Americans and other 
partners and 10 years of hard work and sacrifices, the peace building 
and state building objectives have not been remotely met. Security in 
Mogadishu is at all time low. I was a cabinet minister in 2010 when Al-
Shabaab controlled 80 percent of the city and the government 20 
percent, but I knew then where the enemy was. Today I don't. Despite 
President Farmaajo's pledge to defeat Al-Shabaab within 2 years, 
attacks have continued over the past year. On October 14 2017, more 
than 600 people were killed in a car bomb attack so grotesque that even 
Al-Shabaab didn't dare to claim responsibility. Just 2 weeks ago, the 
group attacked Balcad and Afgoye, two towns just outside the capital. 
Mogadishu itself has been in a semi-permanent lockdown because of 
supposedly explosive-laden vehicles roaming the city and the fear of 
complex terror attacks such as the one aimed at the presidential 
compound 3 weeks ago.
                            amisom's future
    The African Union Mission in Somalia (AMISOM) has made tremendous 
sacrifices in the ongoing peace and state building efforts in Somalia 
and should be commended for liberating almost all urban centers from 
Al-Shabaab. AMISOM also provided Somalia's political elite with a 
security umbrella that has allowed them to get on with the task of 
fixing their failed state. However, it looks like AMISOM's mission in 
Somalia has hit an impasse. It has been on a defensive posture for the 
past 5 years as its bases and convoys have come under attack from Al-
Shabaab, leading to loss of life and military hardware and ammunition. 
European donors have cancelled significant portions of the mission's 
funding and other partners also failed to provide much needed equipment 
such as helicopters. The Somali government wants AMISOM to continue 
with it is drawdown plans (though not necessarily a full-blown 
withdrawal taking place all at once) so its security forces can receive 
donor support at a fraction of the cost of AMISOM. This is a sensible 
plan, because as our report (Exit Strategy Challenges for the AU 
Mission in Somalia) explains, only a professionally-trained Somali army 
can defeat Al-Shabaab.
    AMISOM, on the other hand, is seeking a wider mandate including 
maritime capabilities, which one Somali minister described as mission 
creep. It also rejects the drawdown strategy. It seems AMISOM plans to 
coerce the U.N. Security Council to accept its demands or threaten a 
unilateral move if it does not get its way. The fact that both Kenya 
and Ethiopia (two key troop contributing countries) are having their 
own political problems signals potential uncertainty for the AU 
mission.
                          worrisome prospects
    The current strategy to stabilize Somalia is not working. A change 
of course is in order but unfortunately not in sight. I would even go 
further and state Somalia may be on a dangerous trajectory. As 
mentioned earlier, defeating Al-Shabaab topped the current government's 
mandate, and that has not happened. The group is likely to outlive yet 
another administration. Somalia's parliamentarians, executive and 
regional leaders also failed in the past year to institute political 
stability, which is a vital prerequisite for all the priorities this 
government has to deliver in its remaining 3 years. Completing the 
constitutional review process, establishing political parties, 
instituting an effective and impartial judiciary, curtailing 
corruption, conducting a census, collecting taxes and delivering on the 
promise of one-person-one-vote in 2020, all need stable politics and a 
safe political space.
    That stability was not in evidence for much of last year. The 
national and regional governments were at loggerheads (though problems 
have tapered off). A former presidential candidate was violently 
attacked and his guards killed. Government forces raided a prominent 
lawmaker's home though it was not clear who give the order--local 
actors or external powers. All this has created a toxic political 
environment where trust is low, suspicion is rife and more energy and 
resources are being poured into the contest between squabbling 
political camps than Somalia's myriad of problems.
    The Somali parliament, the purveyors of all political storms, has 
just returned from recess. There are reports that some lawmakers want 
to shake things up by unseating top officials. The fact that the 
mandates of all of the five regional presidents (governors refer to 
themselves as presidents) are up and elections must happen does not 
signal stability. Both external actors and local powerbrokers may pour 
money into these elections, making 2018 and 2019 years that are 
dominated by electioneering and the negative energy and distraction 
from actual work that comes with it.
                               conclusion
    Somalia's challenges are many, and it will take much time to 
overcome them all. There are however steps that local stakeholders and 
international actors can take to help Somalia move forward:

  <bullet> Friends of Somalia such as the United States should 
        understand that the Somali people have faced the most daunting 
        tasks for the past three decades and have shown extraordinary 
        resilience and resolve in overcoming the prolonged upheaval. As 
        a result, they deserve to be commended and supported in a way 
        that makes a difference. What has been happening in the last 
        quarter of a century is equivalent to giving a painkiller to a 
        patient that needed a heart bypass.
  <bullet> More importantly, Somalia's international partners should 
        persuade regional actors to spare Somalia from their 
        geopolitical contests. The country is way too fragile to 
        withstand any pressure from outsiders, particularly from rich 
        Arab countries. If others play at proxy wars in Somalia, the 
        net beneficiary will be Al-Shabaab.
  <bullet> Finally, Somali politicians, particularly the national 
        leadership, should not waste the next 3 years. Instead they 
        should put in place a national strategy to stabilize the 
        country and put it on a trajectory that leads to one-person-
        one-vote in 2020 and beyond. When Somalis get the politics 
        right, they can get on with the hard work of governing.

    Senator Flake. Thank you, Mr. Hashi. I appreciate 
summarizing, and we will address those questions.
    Dr. Bacon.

 STATEMENT OF DR. TRICIA BACON, ASSISTANT PROFESSOR, AMERICAN 
  UNIVERSITY'S SCHOOL OF PUBLIC AFFAIRS, ALEXANDRIA, VIRGINIA

    Dr. Bacon. Good morning. It is an honor to be here today to 
discuss the security situation in Somalia. Thank you for the 
opportunity.
    Over the past 11 years, substantial resources have been 
expended to counter Al-Shabaab, and as my colleague has 
mentioned, there has been progress. There are opportunities and 
there are signs of hope.
    However, as I will discuss today, the current strategy will 
not militarily defeat Al Shabaab, and yet there is little 
impetus to pursue a negotiated settlement either. In this no 
man's land, Al-Shabaab will continue to pose a regional threat 
especially to Kenya and perhaps increasingly to Ethiopia as 
well. It will conduct terrorist attacks in Mogadishu, as well 
as operations against Somali and AMISOM forces. It will also 
act as a shadow government and challenge the legitimacy of the 
still fragile Somali federal government both through its 
violence and through presenting itself as an alternative.
    The military campaign against the group is multifaceted, 
but I would like to focus on AMISOM, the Somali National Army 
and the U.S. counterterrorism efforts.
    AMISOM has committed to a conditions-based withdrawal. It 
seems very aware that any gains will be lost if it withdraws 
prematurely and that the timetable for withdrawal is unwise. 
However, funding remains uncertain and it is that uncertainty, 
not the capability of the Somali National Army, that has 
motivated the withdrawal plans.
    Even assuming that AMISOM stays with current force levels, 
it has little appetite for the very difficult offensive that 
would be required to dislodge Al-Shabaab from its stronghold. 
Even if AMISOM succeeded in clearing those areas, there are not 
the necessary forces in place to hold that territory. And while 
AMISOM is essential to preserving the gains made to date, 
opposing an external occupier is a constant theme in Al-
Shabaab's narrative, and this finds resonance among some 
Somalis.
    Yet, the Somali National Army is woefully unprepared to 
accept responsibility. For the most part, it can hold its 
positions, though usually only in conjunction with AMISOM or in 
agreement with local forces, but it cannot expand into Al-
Shabaab-held territory.
    In addition, the Somali National Army continues to suffer 
from the ill effects of clannism. Overall, it is dominated by 
the Hawiye clan, leading some to see it as a glorified clan 
militia. Within the SNA, clan divisions persist, contributing 
to infighting, poor command and control, and a lack of 
discipline.
    In contrast, Al-Shabaab has positioned itself as a champion 
of marginalized clans, particularly those aggrieved by the 
clan-based power sharing formula. While Al-Shabaab does not 
transcend clannism as it claims, it has sufficient internal 
discipline that personnel obey commands even when there are 
clan differences.
    The Somali National Army also experiences systemic 
corruption. Perhaps most notably, irregular pay leads SNA 
soldiers to prey upon the population. It also makes SNA 
susceptible to infiltration by Al-Shabaab.
    On the other hand, Al-Shabaab is comparatively less 
corrupt, particularly in its treatment of the Somali populace. 
The group takes a hard stance against internal corruption, 
punishing members who engage in such conduct.
    Finally, U.S. airstrikes are putting pressure on Al-
Shabaab. In 2017, the U.S. doubled its airstrikes, hitting 
training facilities, individuals involved in attacks, as well 
as other targets. However, Al-Shabaab can replace personnel 
with limited long-term disruption, and though strikes have 
thwarted some attacks, Al-Shabaab can still strike in 
Mogadishu.
    Overall, Al-Shabaab has and will continue to incur losses 
from AMISOM, the SNA, and the U.S. counterterrorism efforts, 
but its setbacks are largely tactical. It is a resilient 
organization that is able to adapt to changes in the 
environment. And perhaps most importantly, the group has become 
embedded in Somali society, making a military victory difficult 
under the best of circumstances.
    Nonetheless, there are limited prospects for a political 
settlement. Negotiations face serious obstacles, not least of 
which is how unpalatable it is to negotiate with an al Qaeda-
affiliated organization that engages in terrorist attacks like 
the one that killed 500 in Mogadishu last October.
    However, in focusing on the group's terrorist attacks, one 
can overlook that it has established a position as a credible 
alternative to the government, capitalizing on grievances, 
delivering a modicum of justice and security, and offering an 
alternative to the current political system. And despite 
experiencing some tensions, Al-Shabaab is probably the most 
cohesive and unified entity in southern Somalia.
    There are few indications that Al-Shabaab seeks a political 
settlement. Parts of the group, particularly its leaders, are 
ideologically uncompromising and probably irreconcilable. But 
some joined the group because of political marginalization and 
economic exclusion. And others joined quite simply just for 
personal profit. Should negotiations occur, Al-Shabaab would be 
in a powerful position. However, waiting to begin negotiations 
may actually give the group the ability to further improve its 
position.
    To conclude, with limited prospects for a military victory 
and little motivation to enter negotiations, the conflict with 
Al-Shabaab has reached a stalemate. And unfortunately, if one 
side holds a strategic advantage in that stalemate, it may be 
Al-Shabaab.
    Thank you.
    [The prepared statement of Dr. Bacon follows:]

                    Prepared Statement of Dr. Bacon

    Good morning. It is an honor to be here this morning to discuss 
Somalia's current stability and security status, in particular the 
state of efforts against al-Shabaab. Thank you for the opportunity.
    Over the past eleven years, substantial resources have been 
expended in the effort to defeat al-Shabaab. Most notably, the African 
Union Mission to Somalia (AMISOM) deployed in 2007 to protect the 
fledging Transitional Federal Government from the rising threat from 
al-Shabaab. Multiple countries, including the United States, have 
invested significant aid to build a Somali government that is capable 
of governing its people, investing heavily in the Somali National Army, 
police, and other parts of the security sector. In addition to 
training, advising, and even conducting joint operations, the United 
States has conducted an air campaign, launching strikes like the one 
that killed al-Shabaab's leader in 2014. The airstrikes have expanded 
and accelerated over the past year, striking al-Shabaab's training 
facilities, elements of the group involved in attacking the capital, 
and other targets.
    There has been progress and signs of hope. AMISOM helped to regain 
substantial territory from al-Shabaab. The group has lost personnel, 
both because of counterterrorism operations and defections. Elections 
have been held in Somalia, with a peaceful transition of power last 
year.
    However, at a strategic level, the campaign against al-Shabaab is 
at a stalemate. As I will discuss today, the current strategy will not 
militarily defeat al-Shabaab or even seriously degrade the group. Yet, 
there is little momentum to pursue a negotiated political settlement 
either. In the current no-man's land situation, al-Shabaab will 
continue to pose a regional threat, especially to Kenya and perhaps 
increasingly to Ethiopia. It will retain the ability to conduct 
devastating terrorist attacks in Mogadishu as well as operations 
against Somali and AMISOM forces. It will act as a shadow government, 
governing large swaths of rural Somalia overtly while indirectly ruling 
parts of Somalia seemingly under government and AMISOM control. It will 
continue to challenge the legitimacy of the still-fragile Somali 
Federal Government, both through its violence and through presenting 
itself as an alternative to the government.
        the prospects for a military victory against al-shabaab
    Unfortunately, the prospects to defeat al-Shabaab militarily are 
bleak. The military campaign against the group consists of multiple 
components: AMISOM, U.S. counterterrorism strikes, training and 
advising the Somali National Army, and joint operations, just to name a 
few. I will focus here on the impact of AMISOM, the Somali National 
Army, and U.S. counterterrorism strikes.
    Given the security situation in Somalia, it is easy to overlook 
AMISOM's accomplishments: re-capturing territory, including major 
cities, from al-Shabaab; preventing al-Shabaab from gaining control of 
Mogadishu; and helping to secure the country sufficiently for elections 
and a relatively peaceful transition of power last year. AMISOM has an 
enormous, perhaps impossible, mission with thirteen major components in 
its mandate. It has three current strategic objectives, based on U.N. 
Security Council Resolution 2372: to gradually handover security 
responsibility to Somali Security Forces; to reduce the threat posed by 
al-Shabaab and other armed opposition groups; and to assist Somali 
Security Forces to provide security for Somalia's political process and 
peacebuilding efforts.
    There is still some uncertainty about the future of AMISOM. It has 
committed to a conditions-based withdrawal. Recent statements indicate 
that AMISOM is fully aware that its gains will be lost if it withdraws 
prematurely and that a timetable for its withdrawal is not a sound 
approach. To be clear: an AMISOM withdrawal will almost certainly allow 
al-Shabaab to re-gain substantial territory and influence and may even 
lead to the collapse of the Somali Federal Government. However, the 
funding for AMISOM remains uncertain, and it is that uncertainty, not 
the stability of the situation in Somalia and capability of the Somali 
National Army, which has motivated the withdrawal plans.
    Even assuming that AMISOM stays with the current force levels, it 
has a limited offensive orientation and no appetite for the difficult 
offensive campaign that would be needed to dislodge al-Shabaab from its 
stronghold in the rural areas of Somalia. In addition, AMISOM's gains 
have often proven unsustainable. When AMISOM moves out of places that 
it has cleared, al-Shabaab quickly returns or re-emerges from the 
population.
    In the meantime, al-Shabaab inflicts losses on AMISOM. Perhaps most 
notably, the group has overrun Forward Operating Bases, killing and 
injuring scores of troops and seizing arms, military vehicles, and 
heavy weaponry. More recently, it has become adept at ambushing AMISOM 
convoys, including a recent attack on Burundian soldiers escorting a 
convoy of trucks loaded with supplies, which reportedly killed five.
    While AMISOM is essential to preserving the gains made to date, 
opposing ``external occupiers'' and condemning the Somali government as 
a puppet of foreign powers are constant themes in al-Shabaab's 
narrative. And this message resonates among some Somalis who resent 
AMISOM's presence, particularly the Ethiopian and Kenyan troops. 
Accusations of misconduct by AMISOM troops have contributed to some 
local opposition to their presence.
    Yet, the Somali National Army is woefully unprepared to accept 
responsibility from AMISOM. For the most part, the Somali National Army 
is adequate to the task of holding its positions, but can only do so in 
conjunction with AMISOM or with the agreement of local forces. But it 
cannot move beyond its current positions, and for both military and 
political reasons, it cannot expand into al-Shabaab-held territory.
    In addition, the Somali National Army continues to suffer the ill 
effects of clannism. Overall, it is dominated by the Hawiye clan, 
leading others to see it as essentially a clan militia. Within the SNA, 
clan divisions persist, contributing to infighting, poor command and 
control, and a lack of discipline. Loyalty and obedience are often 
determined more by clan affiliation than position and rank. 
Particularly since the collapse of the state, individuals depend upon 
their clans for support and protection. The task of supplanting this to 
realign with the state as national soldiers is a long-term and fraught 
endeavor.
    In contrast, al-Shabaab has positioned itself as a champion of 
disenfranchised clans, particularly those insufficiently represented in 
the clan-based power sharing formula. While al-Shabaab does not 
transcend clan, as it claims, it has sufficient internal discipline 
that personnel obey commands even in the face of clan differences.
    The Somali National Army also experiences endemic corruption. While 
corruption is not unique to the Somali National Army, the SNA's 
corruption and misconduct in particular benefit al-Shabaab. It is 
difficult to provide numbers of SNA personnel because troop numbers 
have often been inflated with ``ghost soldiers'' in order to secure 
more funding from international donors.
    In particular, irregular pay, in part because of corruption at more 
senior levels, has damaging consequences. It contributes to a lack of 
discipline and leads SNA soldiers to prey upon the population.
    Moreover, there is a lack of accountability and redress when 
civilians lodge complaints against SNA personnel. Of the 228 complaints 
filed against the Ministry of Defense with the Somali anti-corruption 
NGO Marqaati, 97% concerned soldiers robbing people at gunpoint. 
Soldiers sometimes sell their weapons, equipment, or even uniforms, 
which can end up in al-Shabaab's hands and contribute to the SNA's 
equipment and supply shortfalls. Irregular pay also makes the SNA more 
susceptible to infiltration by al-Shabaab, which is already a 
significant problem. Some SNA personnel have reportedly even defected 
to al-Shabaab after prolonged periods without pay.
    On the other hand, al-Shabaab is comparatively less corrupt, 
particularly in its treatment of the Somali populace. Traveling on 
roads that it controls involves paying a one-time ``tax'' that comes 
with a receipt, rather than paying at multiple checkpoints or being 
robbed on other roads, including those controlled by SNA soldiers. Al-
Shabaab has a system for people to lodge complaints against its members 
for misconduct. The group takes a hard stance against internal 
corruption, severely punishing members who engage in such conduct.
    Finally, U.S. airstrikes and joint operations are putting pressure 
on al-Shabaab and causing some internal disruptions within the group. 
In 2017, the United States conducted twice as many airstrikes against 
al-Shabaab as it did in 2016. Last March the campaign expanded beyond 
self-defense to include offensive strikes with greater flexibility to 
target the group and to support AMISOM and Somali forces.
    The strikes are succeeding in forcing al-Shabaab commanders to 
focus more on personal security at the expense of other activities. 
They have to be more cautious about their movements and communications, 
which hampers coordination. Their leaders, particularly high-value 
targets, are less accessible to their followers. When members have to 
dedicate resources to their own security, it reduces their ability to 
effectively engage in operational planning. The airstrikes also stoke 
fears of spies and infiltrators, which can lead to witch hunts that 
damage group cohesion and alienate the local population. In addition, 
the airstrikes have disrupted some planned attacks on Mogadishu and 
eliminated individuals involved in those operations.
    However, after more than a decade and having endured numerous 
losses, including of its founding leader, al-Shabaab has developed a 
deep bench--which means it can replace commanders, and even leaders, 
with limited long-term disruption. Though the strikes have thwarted 
some attacks and damaged the group's planning, al-Shabaab retains 
robust operational capacity, including in Mogadishu. Moreover, al-
Shabaab has sought to persuade Somalis, with some success, that the 
airstrikes disproportionately harm civilians.
    Overall, al-Shabaab has and will continue to incur losses from 
AMISOM, the Somali National Army, and U.S. CT strikes. The United 
States' provision of an unmanned aerial intelligence, surveillance, and 
reconnaissance (ISR) system to AMISOM will help AMISOM to avoid or pre-
empt some al-Shabaab ambushes. But al-Shabaab's setbacks have been and 
will remain largely tactical. It is a mature and resilient organization 
with a proven track record of adapting its tactics to changes in the 
environment. Perhaps more importantly, the group is embedded in Somali 
society, making a military victory difficult in the best of 
circumstances, but highly unlikely in the current situation.
                the prospects for a political settlement
    Despite the absence of a viable route to militarily defeating al-
Shabaab, there are also limited prospects for a political settlement. 
Without question, any negotiations with al-Shabaab face serious 
obstacles, not least of which is how unpalatable it is to negotiate 
with an al-Qaida-affiliated organization that engages in terrorist 
attacks like the one that killed 500 in Mogadishu in October. However, 
in focusing on the group's terrorist attacks, one can overlook that the 
group has established a position as a credible alternative to the 
government, effectively capitalizing on grievances, delivering a 
modicum of justice and security, and offering an alternative to the 
clannism and reliance on external actors that defines the current 
political system. Despite experiencing some tensions, al-Shabaab is 
probably the most cohesive and unified entity in southern Somalia. But 
ultimately, al-Shabaab's main strength is the weakness of its main 
adversary: the Somali Federal Government.
    To be clear at the outset: there are few indications that al-
Shabaab as an organization seeks negotiations to find a political 
settlement. Some argue that the group, or at least elements of it, are 
irreconcilable. That is probably true, though it is impossible to 
definitively know this until negotiations are seriously attempted. 
There are parts of the group, particularly its leaders, who are 
ideologically hardline and committed to al-Qaida, and thus probably 
irreconcilable. But a substantial number of al-Shabaab members joined 
because of grievances about political marginalization and economic 
exclusion in the current system. Some even joined for personal profit. 
This segment of al-Shabaab likely has the potential to reconcile and 
reintegrate. However, given al-Shabaab's strength, the hopes that al-
Shabaab can be significantly weakened through defections are 
unwarranted.
    Perhaps equally problematic, al-Shabaab still enjoys a position of 
relative strength compared to the government, which gives it little 
incentive to enter into negotiations. It can readily endure the 
military pressure it faces. And with the prospect of an AMISOM 
withdrawal looming, the group may believe that all it needs to do is 
wait to improve its position further. Even if it did enter 
negotiations, it is in a sufficiently strong position that the 
government would be hard pressed to offer it more than it already has.
    Another risk of negotiations is that they could damage the 
credibility of the still fragile Somali Federal Government. Despite 
some progress, the government is far from secure. Al-Shabaab has 
reportedly infiltrated many of the major Somali Federal Government 
institutions. And some government officials have made unrealistic 
promises about the prospects to militarily defeat al-Shabaab and build 
a Somali National Army, promises that would be exposed as such if the 
government pursues negotiations. In addition, negotiations with al-
Shabaab may also face resistance from important international donors, 
not least of all, the United States.
    In contrast, al-Shabaab has garnered legitimacy as an alternative 
to the government. It has a relatively well run administration, which 
flies in the face of claims that Somalia is ungovernable. The main 
services it provides are relative security in the territory it controls 
and justice for those who use its court system. As long as the 
population adheres to its edicts, they enjoy a modicum of security. Its 
courts are perceived as fair, efficient, and uncorrupt, which leads 
even some who do not live under al-Shabaab courts to seek them out to 
resolve disputes. Equally important, people adhere to al-Shabaab's 
court rulings, if for no other reason than the group's ability to 
inflict punishment on those who try to defy it.
    Al-Shabaab also runs an extensive taxation system that enjoys near 
universal compliance, for largely the same reason. Though it has 
sometimes overreached in what it tries to extract from the population, 
for the most part, the group efficiently collects ``taxes,'' even from 
businesses in Mogadishu, a feat that the government has not matched. 
Many licit and illicit businesses alike cooperate with al-Shabaab, 
because where al-Shabaab's writ extends, its licenses, rulings, and 
receipts are honored. In addition to offering a robust source of 
income, taxation is yet another way that al-Shabaab makes its presence 
felt throughout Somali society.
    Al-Shabaab's combination of legitimacy and coercive power have 
produced results unparalleled in southern Somalia since the collapse of 
the state. Should negotiations occur, al-Shabaab would be in a powerful 
negotiating position. Rather than postponing negotiations until al-
Shabaab is weakened, waiting to begin negotiations may actually give 
the group the ability to improve its position.
                               conclusion
    To conclude, if one measures the state of the effort against al-
Shabaab by the territory it controls compared to its peak or the number 
of al-Shabaab fighters or high value targets who have been killed, the 
assessment may not appear as grim. But these metrics do not capture the 
far more complex conflict underway between a fragile government seen by 
some as propped up by external actors and a jihadist insurgency that 
has succeeded in embedding itself in society. The group has been 
declared on its back foot or on the verge of defeat many times. It is 
simply not the case.
    With limited prospects for a military victory and little motivation 
on either side to enter the difficult negotiations that would be needed 
to find a political settlement, the conflict with al-Shabaab has 
reached a stalemate. Both sides will achieve tactical victories and 
experience tactical defeats. If one side holds a strategic advantage in 
the stalemate, it is al-Shabaab. While time and resources do give the 
Somali Federal Government a chance to improve governance, the political 
will among donor countries or AMISOM may wane over time, absent 
significant progress or simply because of other crises demanding 
resources. For the time being, the conflict is in a holding pattern, 
one that is costly in terms of lives and resources. And one that is 
unlikely to end with al-Shabaab's defeat.

    Senator Flake. Thank you, Dr. Bacon.
    Mr. Yarnell.

  STATEMENT OF MARK YARNELL, UN LIAISON AND SENIOR ADVOCATE, 
             REFUGEES INTERNATIONAL, WASHINGTON, DC

    Mr. Yarnell. Thank you, Chairman Flake, Ranking Member 
Booker, Senator Merkley, members of the subcommittee. It is an 
honor to be here, and I ask that my full statement be submitted 
for the record.
    In 2017, funds authorized by you, Members of Congress, 
helped stave off a major famine in Somalia. But the crisis is 
far from over. Severe drought and insecurity continue, and we 
now face the very old threat, Senator Flake, as you said, of 
backsliding.
    In my testimony, I will first explain the positive impact 
of last year's response. I will then highlight three urgent 
issues: the ongoing humanitarian needs, the lack of safety and 
security for displaced Somalis, and the uncertainty facing 
Somali refugees in Kenya. I will also address longer-term 
development objectives and the critical role of sustained U.S. 
leadership.
    At this time last year, the deadly combination of drought 
and violent conflict brought Somalia to the edge of 
catastrophe, one that could have rivaled the 2011 famine that 
killed 260,000 people.
    I was in Somalia during the height of the crisis last year 
as hundreds of thousands were fleeing their homes in search of 
food and water. In one town, where people had been streaming in 
from the surrounding rural areas, I met Somalis who had lost 
everything. One woman, Halima, had arrived with her seven 
children. The drought had killed most of her animals and Al-
Shabaab had taken the rest. Now she was simply desperate for 
food to feed her children. Her story was all too common, and 
the prognosis looked bleak.
    Fortunately, when USAID's famine early warning systems 
network sounded the alarm, the United States and other donors 
responded with significant resources. According to UNICEF, 
nearly 1 million Somalis accessed emergency nutrition services. 
Agencies like the World Food Program increased the 
implementation of cash assistance allowing the people to buy 
the food items they needed while also helping to stabilize the 
markets.
    However, though a worst-case scenario was, indeed, avoided, 
the drought persists and insecurity continues. There are 
currently around 2.1 million Somalis displaced within their own 
country, and if the next long rains fail, this could result in 
a poor harvest for the fifth consecutive season.
    At present, more than half the people in need in Somalia 
are children. We know that targeted, well-resourced feeding 
programs can work. We cannot allow thousands of children to die 
simply because of a lack of funding. Based on the current 
needs, the U.S. Government and other donors should at least 
match the humanitarian funding that was provided last year.
    As well as treating hunger and malnutrition, more 
assistance is also needed to protect the rights and safety of 
displaced Somalis. Tragically, rape and sexual assault is 
pervasive, including at the hands of security forces. As well, 
uncertain land tenure means that people living in displacement 
camps face the constant threat of forceful evictions, 
especially those from weaker clans and minority ethnic groups.
    Across the border in Kenya, the government has suspended 
refugee registration for arrivals from Somalia and periodically 
threatens to close the Dadaab refugee camp which houses more 
than 230,000 Somali refugees.
    The decision by the Trump administration to effectively 
scuttle the option of resettlement to the United States has 
dealt another blow. This is deeply disturbing. Resettlement is 
an essential form of protection for refugees who face 
particular threats and vulnerabilities. And it also offers hope 
for the future. For many, this hope is now gone.
    Ultimately, emergency response efforts for Somalia can only 
go so far, especially in the face of worsening climate trends. 
A key component for a longer-term strategy for Somalia is dual-
pronged: support resilience programs that aim to help people 
bounce back from climate shocks while also adapting assistance 
for urban-displaced who have lost their livelihoods and are 
unlikely to return to their home areas.
    Fortunately, despite the challenges, the United States does 
have, I believe, a willing partner in the Somali Government, 
but to ensure that engagement with Somalia is as effective as 
possible, indeed the post of U.S. Ambassador to Somalia must be 
filled without delay.
    Last year, in the face of crisis, you here in Congress 
passed a supplemental appropriations bill that saved lives and 
prevented a disaster. Now that same leadership is needed to 
sustain those gains and to support Somalis as they build a 
better future.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Yarnell follows:]

                   Prepared Statement of Mr. Yarnell

    I would like to take this opportunity to thank Chairman Flake, 
Ranking Member Booker, and the members of this subcommittee for holding 
this timely hearing today.
    Refugees International (RI) is a non-profit, non-governmental 
organization that advocates for lifesaving assistance and protection 
for displaced people in parts of the world impacted by conflict, 
persecution, and forced displacement. Based in Washington, we conduct 
fact-finding missions to research and report on the circumstances of 
displaced populations in countries such as Somalia, Iraq, Nigeria, and 
Bangladesh. RI does not accept any government or United Nations 
funding, which helps ensure that our advocacy is impartial and 
independent.
    I have traveled to Somalia and the wider Horn of Africa region 
every year for the past six years, and Refugees International has been 
reporting on the situation for displaced Somalis since 2008.
    You are holding this hearing at a crucial moment for Somalia. Last 
year, famine was averted--but the crisis is far from over. In February 
2017, after successive failed rainy seasons, the Famine Early Warning 
System Network (FEWSNET)--the early warning and analysis institution 
created by USAID in 1985--rang the alarm bell. The deadly combination 
of drought, violent conflict, and restricted humanitarian access could 
have led to a catastrophe as severe as the 2011 Somali famine that 
killed 260,000.
    Fortunately, unlike in 2011, the early warning system worked. Donor 
governments, especially the United States, responded promptly with 
robust humanitarian funding. Aid organizations were able to expand 
their operations and target populations in greatest need--thus avoiding 
a worst case scenario.
    However, though famine was averted, the humanitarian needs in 
Somalia remain significant, and strong donor funding through 2018 is 
essential to save lives and prevent backsliding from the fragile gains 
that were made last year. Drought and conflict have continued into 
2018, further eroding the coping capacity of Somali households and 
contributing to new displacement. At present, 5.4 million people are in 
need of emergency assistance throughout the country, including more 
than 300,000 children who are at risk of starvation.
    More than 2 million Somalis are displaced internally, as well as 
hundreds of thousands living as refugees in neighboring countries. In 
addition to providing life-saving services like food and healthcare, 
the United States must support programs that protect the rights and 
well-being of displaced Somalis who suffer from pervasive gender-based 
violence (GBV) and face the regular threat of eviction their camps, 
especially in the Somali capital, Mogadishu.
    Across the border in Kenya, where the government has at times 
threatened to close down the Dadaab refugee camp, currently housing 
more than 230,000 Somali refugees, news that the U.S. resettlement 
program has effectively been shuttered--by so-called extreme vetting 
and other administrative and bureaucratic hurdles--has been devastating 
to refugees who face exceptional vulnerabilities. Congress must press 
the Trump Administration to maintain the longstanding U.S. commitment 
to resettle refugees in need.
    Ultimately, U.S. assistance to the region will need to go beyond 
near-term humanitarian concerns if we are to address the chronic nature 
of the crisis in Somalia. This includes expanding programs that support 
the resilience of Somalis to rebound from recurrent drought, as well as 
programs that are adapted to the rapid urbanization of the country.
    My testimony today will detail last year's emergency response to 
prevent famine, the ongoing humanitarian needs, protection gaps in the 
response, and concerns for refugees in Kenya. I will provide both 
immediate and long-term policy recommendations to better address the 
needs of Somalis.
                             famine averted
    I traveled to Somalia in July of last year, during the height of 
the crisis. By then 800,000 people had been displaced because of the 
drought. Most fled from rural areas, often under the control of Al-
Shabaab, to urban centers secured by the Somali government and African 
Union peacekeeping forces. In these areas accessible to aid agencies, 
there was at least the chance that people who had lost everything could 
receive life-saving assistance.
    When I visited the town of Baidoa in south central Somalia, 
humanitarian agencies were struggling to keep up with the pace of new 
arrivals. At the time, the town had received nearly 170,000 internally 
displaced people (IDPs) from the surrounding rural areas--most arriving 
by foot after days of travel. I met a single mother named Halima who 
had recently arrived with her seven children. She was from a small 
village about 20 miles northwest of Baidoa, where she had a small farm 
as well as camels, cows, and goats. Tragically, as she described, 
``There was not enough water or (food) for the animals and many died. 
Then Al-Shabaab took some of them . . . to eat. I had only one donkey 
left. When he died, I came here.'' Her story is all too common.
    Halima and other displaced people were living in informal 
settlements in small, makeshift shelters built with cloth and sticks. 
At the sites I visited, the shelters were only a few feet apart and 
most lacked adequate access to clean water and sanitation facilities. 
Shortly before we arrived, a cholera epidemic had swept through a 
number of IDP sites, killing hundreds.
    My colleagues and I were extremely concerned. Throughout the 
country, malnutrition rates were rising, and among IDPs in Baidoa, the 
rate of severe acute malnutrition had tripled. The threat of famine was 
real.
    Fortunately, donors stepped up, and aid agencies rapidly expanded 
their programs. In FY 2017, the United States alone provided more than 
$422 million in emergency funding through USAID's Office of Foreign 
Disaster Assistance and Office of Food for Peace, as well as the State 
Department's Bureau for Population, Refugees, and Migration. 
Importantly, the famine warning by FEWSNET--also funded by the United 
States--helped rally others to quickly respond. The system worked. By 
the end of last year, the U.N.'s request for $1.5 billion was more than 
70 percent funded. Members of the Senate and House deserve particular 
credit for responding to the urgent needs by adding $990 million in 
supplemental famine prevention and response in four countries, 
including Somalia, in May of last year.
    The robust funding allowed aid workers to reach more people in 
need, with a particular focus on treating those who were on the edge of 
starvation. According to UNICEF, nearly one million Somalis accessed 
nutrition services in 2017, many of them young children suffering from 
severe malnutrition. Through the end of last year, the overall rate of 
Somalis suffering from hunger and malnutrition has slightly, though 
steadily declined. Specifically, the median rate of global acute 
malnutrition across the country dropped from 17.4 percent in July to 
13.8 percent in December.
    Additionally, U.N. agencies and NGOs significantly increased the 
implementation of cash assistance programs. Despite the crisis, market 
systems in Somalia have continued to function. Cash assistance has 
allowed IDPs to buy the food items they needed while helping to 
stabilize the markets. The United Nations cites the expansion of cash 
assistance as a key factor in preventing famine.
    Finally, a coordination group led by the International Organization 
for Migration and the U.N. Refugee Agency (UNHCR) conducted detailed 
IDP site assessments to determine which agency was providing which 
services and where, with the objective of ensuring that the funding 
provided to humanitarian agencies was implemented as effectively as 
possible. This has contributed to an improvement in the basic 
conditions in some IDP camps, in particular for shelter, as well as for 
water and sanitation services.
                      drought and conflict persist
    Though the worst was avoided, this is no time to take the foot off 
the gas pedal. Unfortunately, the drought persists and insecurity 
continues. There are currently 2.1 million Somalis displaced 
internally--more than double the number from 2016--and 5.4 million are 
in need of food assistance. The next long rains, from April to June, 
are forecast to be below average, which could lead to a poor harvest 
for the fifth consecutive season. Even if favorable rains do come, 
crops and livestock have been depleted to such a degree that it will 
require multiple successive strong rainy seasons for pastoralist and 
agriculturalist communities to recover livelihood assets.
    Additionally, while the Somali government, with the support of 
African Union peacekeepers, has expanded its area of territorial 
control over the past few years, the conflict with Al-Shabaab continues 
to force people from their homes on a regular basis. When I was in 
Mogadishu in July 2017, I met with a woman named Badra and her five 
children--one less than a year old--who had fled to an IDP camp only a 
few days prior. The lack of rain had already wiped out some of her 
livelihood assets when Al-Shabaab attacked her village in the district 
of Merka, just south of Mogadishu, in an attempt to reclaim it from 
government control. ``First we had a terrible drought and a lot of our 
livestock died. Then fighting broke out, and these guys took what we 
had left. I used to have camels, cows, and goats. Now, nothing is 
left,'' she said.
    When she and her children arrived in Mogadishu, they settled on a 
small plot of land with other IDPs. After several days, they had not 
yet received any aid, so they were dependent on the generosity of 
others in the camp to share their food. Though the overall situation in 
Somalia has improved since I met Badra and her children last July, the 
combination of drought and conflict continues to force tens of 
thousands of Somalis from their homes on a monthly basis.
    Through 2018, the United Nations estimates that $1.5 billion will 
be needed for the humanitarian response in Somalia. Just before he 
departed for Africa last week, Secretary of State Rex Tillerson 
announced an additional $110 million in humanitarian funding for 
Somalia from the United States. This is welcome and badly needed, but 
it is not enough to meet urgent needs this year. Aid organizations that 
expanded their operations during the worst of the crisis need 
assurances that they can maintain robust programming while the crisis 
continues. The gains from last year are fragile.
    At present, more than half the people in need in Somalia are 
children, including more than 300,000 who face acute malnutrition. We 
know that targeted, well-resourced feeding programs can work. We cannot 
allow thousands of children to die simply because of a lack of funding.
    Recently, a senior aid worker in Somalia told me that, last month, 
his organization had to close 15 mobile nutrition units, serving 84 
communities, due to lack of funding. And they may end other health 
programs if they do not receive additional money soon.
    This year, in addition to the new funding that Secretary Tillerson 
announced, the United States must at least match the nearly $423 
million that it provided in FY2017 with an additional contribution of 
at least $313 million. In particular, support for nutrition and health 
programing, as well as cash assistance for food, is essential.
         protecting the rights and safety of displaced somalis
    In a troubling trend, as the numbers of drought-displaced Somalis 
increased, so did the incidents of rape and other forms of gender-based 
violence (GBV). In June of last year, as the IDP caseload ballooned, 
UNICEF and its partners responded to nearly a thousand cases of rape--a 
three-fold increase compared to previous months. When I visited Baidoa 
last year, GBV specialists told us that intimate partner violence among 
IDPs was a serious concern but also that perpetrators from the 
outside--including members of security forces--come and go from IDP 
sites with ease. As noted above, detailed site assessments have helped 
improve the overall conditions in camps, but to address sexual violence 
and other forms of GBV, efforts to reduce overcrowding in IDP camps as 
well as to install solar-panel lighting and sex-disaggregated latrines 
with locks must be expanded. There is also urgent need for more 
healthcare and psychosocial support for victims. This all requires 
donor support.
    IDPs also face the regular threat of being forcibly evicted from 
camps. As the value of land has increased in urban areas--particularly 
in Mogadishu--landowners, including government officials, often seek to 
reclaim their land for private development. With advance notice, the 
identification of alternative site locations, in consultation with IDPs 
and the aid organizations that serve them, relocations can be carried 
out appropriately and in a way that does not cause additional harm. To 
that end, in 2014, the Somali government adopted a policy that set out 
guidelines for lawful evictions.
    Unfortunately, however, the policy is rarely followed. The 
Norwegian Refugee Council reported that in 2017, more than 153,000 IDPs 
were forcibly evicted in Mogadishu alone. In one particularly 
devastating incident on December 29, some 29,000 IDPs residing at a 
cluster of sites on the outskirts of Mogadishu were sent fleeing when a 
bulldozer and armed men showed up and demolished shelters as well as 
emergency schools, water points, and a feeding center. In the immediate 
term, Somali authorities must hold the perpetrators accountable. Going 
forward, protection actors, such as the U.N. Refugee Agency, must 
develop deeper community linkages with IDPs and landowners to establish 
an early warning system for evictions. Upon notice of evictions, U.N. 
officials must directly engage Somali authorities to prevent unlawful 
actions from going forward.
    Already marginalized groups in Somali society are particularly 
prone to this and other risks. We know that during the 2011 famine, 
most of those who died were from traditionally weaker clans and 
minority ethnic groups, including the Rahanweyn clan and Somali Bantus. 
Those from more dominant clans often controlled aid distribution flows 
into IDP camps, diverting portions of aid from those at the lower end 
of the social hierarchy--a practice that was pervasive. To address this 
during the current crisis, some relief agencies have trained staff to 
map the power dynamics within IDP sites and enhance post-distribution 
monitoring. This is currently happening on a relatively small scale and 
should be expanded to ensure that assistance is delivered to those for 
whom it is intended.
    Strong financial contributions from the United States must 
prioritize support for monitoring, preventing, and responding to 
protection challenges.
                           refugees in kenya
    In addition to those displaced internally within Somalia, many 
Somalis have sought refuge in neighboring countries, including more 
than 290,000 in Kenya, most of whom reside at the Dadaab refugee camp 
in the northeast region of the country. While Kenya has been a generous 
host to refugees from throughout the region for decades, the government 
has made calls for the closure of the camp and for all Somalis to 
return home. Most recently, they called for Dadaab to be shuttered by 
May 2017, but the policy was ruled unconstitutional by Kenya's High 
Court. Despite the ruling, the government is effectively achieving its 
plan to reduce the numbers in Dadaab by refusing to register new 
arrivals and by urging Somalis to sign-up for a facilitated returns 
program.
    The lack of ongoing refugee registration is significant, especially 
while the conditions inside Somalia remain perilous. Without 
registration, asylum seekers who arrive in Kenya are not able to 
receive life-saving assistance such as food and shelter. Additionally, 
without legal status, they are subject to arrest and deportation. 
Through 2017, a Kenyan aid organization monitoring the border between 
the two countries counted about 24,000 Somalis crossing into Kenya, 
with most citing drought and insecurity as motivating factors. In 
addition, the United Nations has profiled around 7,000 unregistered 
Somalis in Dadaab. Though the numbers are relatively small, the policy 
is harmful. The Kenyan government is essentially sending a message 
north of the border that, even when Somalis are fleeing for their 
lives, they will not receive assistance and protection in Kenya.
    Life in Dadaab is by no means easy. The sprawling camp complex is 
located in a remote, arid region of Kenya. And the World Food Program 
regularly cuts food rations due to a lack of funding, most recently in 
October 2017. Nonetheless, as described above, the conditions inside 
Somalia are in no way conducive to large-scale returns. Short of 
alternative options, the camp offers Somalis a place of refuge until 
conditions back home improve.
    As a result of this combination of factors, morale among the 
refugee population in Dadaab is very low. Many feel pressure to leave 
Kenya while they fear for their ability to survive if they return to 
Somalia too soon. The decision by the Trump Administration to 
effectively scuttle the option of resettlement to the United States has 
dealt another blow. In 2016, the United States resettled nearly 10,000 
refugees from Somalia. In contrast, over the past 5 months, with new 
U.S. vetting and bureaucratic measures in place, only 177 Somalis have 
been resettled to the United States, with no expectation that numbers 
will increase substantially. This is deeply disturbing, as resettlement 
is an essential form of protection for refugees who face particular 
threats and vulnerabilities.
    It is imperative for Congress to urge the Trump Administration to 
maintain the longstanding U.S. commitment to resettle refugees. 
Additionally, the United States must sustain financial support for 
refugee assistance operations in Dadaab, while calling on the Kenyan 
government to resume refugee registration for arrivals from Somalia and 
to ensure that any returns to Somalia are safe, dignified, and 
voluntary.
              strategy for displacement over the long-term
    Short-term, emergency response efforts, whether for those 
internally displaced in Somalia or for refugees in neighboring 
countries like Kenya, can only go so far. A key component for a longer-
term strategy for Somalia is dual-pronged: Address the conditions of 
need that cause displacement in the first place, but also adapt 
programing for urbanized IDPs who have already lost their livelihood 
assets and are unlikely to return to rural areas.
    To its credit, U.S. government support to Somalia over the past 
several years has included support for programs to build the resilience 
of vulnerable households to climate stress and other shocks. Innovative 
resilience programs, supported by the U.S. Agency for International 
Development, have proven effective in improving food security and 
allowing communities to better weather poor harvests. The United States 
has proven to be a thought leader in resilience efforts and must 
sustain investment in its program. Specifically, the United States must 
continue to support resilience programs that bridge the gap between 
short-term responses and long-term needs, including those aimed at 
restoring and improving productive capacities through improved 
agricultural inputs and rehabilitation of agricultural productive 
infrastructure.
    Unfortunately, for those who are not able to weather recurrent 
shocks, the ongoing crisis has resulted in massive displacement to 
urban areas, while climate change and other structural economic causes 
have contributed to urbanization in general. Mogadishu is now one of 
the fastest growing cities in the world. Many of the IDPs in Mogadishu 
and other cities with whom I have met over the past five years have 
said they expect that they will never to return to their pastoralist or 
agriculturalist livelihoods because all of their assets have been 
completely wiped out. Others told me that they had lost so many family 
members during periods of insecurity that they had nothing to return 
to.
    Given this reality, the U.S. assistance to Somalia will 
increasingly need to focus on urban development and promoting the local 
inclusion of IDPs in cities. We urge the United States to support 
initiatives to engage local governments to extend access to urban 
services and to integrate IDPs who are unlikely to return their home 
areas. This support should also include assistance for education and 
new skills development among IDPs as Somalia transforms into an 
urbanized society.
    Fortunately, the United States and other donors appear to have a 
willing partner in the Somali government in achieving these development 
objectives. Somalia's current National Development Plan prioritizes 
climate adaptation strategies, and political leaders, at both the 
national and local level, have made positive statements regarding the 
integration of IDPs in urban areas.
                               conclusion
    Now is not the time to scale back on our commitment to Somalia. 
Though famine was averted last year, serious needs remain and the risk 
of backsliding is real. In addition, humanitarian assistance must be 
matched by sustained engagement with the Somali government in support 
of peace and stability. Indeed, when Secretary Tillerson announced new 
humanitarian funding for Somalia, he noted that money will not solve 
Somalia's challenges, ``but only buy us time--time to pursue diplomatic 
solutions.'' To that end, Congress must urge the President to nominate 
a U.S. ambassador to Somalia. This would demonstrate not only an 
intention to promote a coherent U.S. approach toward Somalia, but it 
would also demonstrate U.S. commitment to the Somali people.
                    key recommendations for congress
  <bullet> Provide at least an additional $313 million in humanitarian 
        funding in FY2018 to respond to emergency needs in Somalia and 
        to protect the rights and safety of displaced populations.

      <all>  Funding priorities should include nutrition, health, and 
            cash assistance, as well programs that seek to both prevent 
            and respond to gender-based violence.
      <all>  Programs aimed at monitoring, preventing, and responding 
            to regular forced evictions of internally displaced people 
            (IDPs) from their camps should also be supported.

  <bullet> Sustain financial support for the refugee assistance 
        operations in Dadaab, currently housing more than 230,000 
        Somali refugees. Additionally, call on the Kenyan government to 
        resume refugee registration for arrivals from Somalia and to 
        ensure that any returns to Somalia are safe, dignified, and 
        voluntary.
  <bullet> Urge the Trump Administration to maintain the longstanding 
        U.S. commitment to resettle refugees in need, including 
        Somalis.
  <bullet> Support a long-term assistance strategy in Somalia that 
        includes:

      <all>  Continued programing aimed at building household and 
            community resilience to drought;
      <all>  Urban development and planning that extends access to 
            affordable housing, land, services, and jobs for IDPs who 
            may never return to their rural home areas.

  <bullet> Call on President Trump to nominate an ambassador to Somalia

    Senator Flake. Thank you.
    Dr. Hogendoorn.

  STATEMENT OF DR. E.J. HOGENDOORN, DEPUTY PROGRAM DIRECTOR, 
       AFRICA, INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Dr. Hogendoorn. Thank you, Senators Flake, Booker, and 
Merkley, for inviting Crisis Group to testify today.
    We last testified on Somalia in 2013, and sadly there has 
been too little progress so far.
    Today in my testimony, I would like to stress three points 
for your consideration.
    First, there is no military solution to the conflict in 
Somalia. U.S. drone strikes and special forces operations 
cannot defeat Al-Shabaab, and 22,000 African Union forces 
cannot control or pacify an area the size of New Mexico. That 
is because Al-Shabaab is a resilient foe. It has shifted from 
conventional to asymmetric warfare. It is now engaging in 
ambushes, suicide bombings, and assassinations to continue to 
undermine attempts to rebuild the state in the country. It also 
exploits clan grievances and popular disgust with the 
government's corruption, nepotism, and impunity of their 
officials to exert control over large amounts of the rural 
population in south and central Somalia.
    To defeat Al-Shabaab, we need two things. We need effective 
local security partners, and while there had been some 
improvements, it has not been enough. The Somali National Army 
in particular is poorly coordinated, is mistrusted by a number 
of important clans, and there is massive corruption that 
undermines morale and the ability to operate. In fact, on 14 
December, the United States suspended its support to most of 
Somalia's national army because of corruption concerns. Small 
and specialized units such as the NOB are not enough to take on 
Al-Shabaab.
    Secondly, we need to generate Somali political will for 
security sector reform. Unfortunately, what we have right now 
is we have perverse incentives pervading in Mogadishu. Because 
AMISOM is protecting the government from Al-Shabaab, many 
politicians prefer the status quo, which is a continuation of 
massive corruption and unwillingness to address the political 
dysfunctions that are driving people to support Al-Shabaab or 
to expend the political capital that would be necessary for 
significant security sector reform. We need to change those 
incentives, and as part of that, what has been discussed is an 
exit strategy for AMISOM, the idea being that we slowly hand 
security responsibilities over to our Somali partners. In an 
effort to do that, the U.N. Security Council also passed 
resolution 2372 late last year in an effort to set up a 
timeline for this passing of responsibility from AMISOM to the 
Somalis, and we think that that should be pursued.
    A second issue that I would like to raise--it has been 
raised by some of my colleagues--is poor governance and 
corruption. Unfortunately, Somalia is still governed by a 2012 
provisional constitution, which vaguely defines the division of 
responsibilities and authorities both at the executive and 
between federal member states. This is the cause of much 
disfunctioning, chronic infighting between the president, the 
prime minister, and parliament, as Abdirashid has referred to, 
and it has also led to significant tensions between Mogadishu 
and regional capitals as to how to pursue the effort against 
Al-Shabaab.
    Another disturbing aspect is a decision by the Somali 
federal government to pursue what in Somali is called ``hard 
government.'' The government has actually taken some fairly 
authoritarian steps particularly against opposition leaders, 
most notably in a December raid against an opposition leader in 
which five of his body guards were killed. This is costing the 
government significant popular support.
    In addition, abrasive rhetoric by politicians in Mogadishu 
has exacerbated tensions between certain federal states. It has 
also exacerbated tensions between the self-declared independent 
Somaliland and the federal member state of Puntland.
    And last but not least, Somalia still has not tackled the 
massive problem of corruption. It should not be a surprise to 
anyone here that Somalia is, unfortunately, ranked the most 
corrupt country in the world, according to Transparency 
International.
    Last but not least--Abdirashid mentioned this as well, but 
I think it is important to stress--there are significant 
external destabilizing influences, particularly at the moment 
when it comes to the rivalry between the Gulf state actors in 
Somalia. This is especially true for the rivalry between the 
United Arab Emirates and Qatar in which the Qataris have for a 
long time supported the president and the Emiratis in turn are 
supporting federal member states. This is undermining state 
building efforts and raising tensions significantly between 
member states and the federal government and between Somaliland 
and the Somali Federal Government as well.
    To end, I have three recommendations for the Senate Foreign 
Relations Committee at this point.
    I agree that we need to nominate and approve a new U.S. 
ambassador who can go to Mogadishu when we open our embassy in 
August.
    In addition, I think that the State Department should be 
instructed to coordinate activities between the Near East 
Bureau and the Africa Bureau to try to mitigate the 
destabilizing impact of this Gulf state rivalry that I have 
mentioned.
    Secondly, I think it would be important for Congress to 
appropriate or shift money from the military effort to 
governance reform programs and also to help combat corruption 
in Somalia.
    And last but not least, I think it would be important to 
use U.S. influence and leverage to try to force--not try to 
force, but to encourage the Somali federal government and 
federal member states to resolve their differences over the 
division of power and responsibilities between the Federal 
Government and Federal Member States and to institutionalize 
those structures as well.
    And I thank you for your attention and look forward to your 
questions.
    [The prepared statement of Dr. Hogendoorn follows:]

                  Prepared Statement of Dr. Hogendoorn

    I would like to take this opportunity to thank Chairman Flake, 
Ranking member Booker and the other members of the Subcommittee on 
African Affairs for inviting Crisis Group to testify today on Security 
and Governance in Somalia. Crisis Group has been working on Somalia 
since 2002, and we continue to follow events there closely from our 
office in Nairobi, with frequent visits to the country's various 
regions.
    Crisis Group is an independent, non-partisan, non-governmental 
organization that provides field-based analysis, policy advice and 
recommendations to governments, the United Nations, the European Union 
and other multilateral organizations on the prevention and resolution 
of deadly conflict. Crisis Group publishes some 80 reports and briefing 
papers annually, as well as a monthly CrisisWatch bulletin. Our staff 
covers over 60 countries and is focused on conflict prevention and 
mitigation, as well as post-conflict peacebuilding.
          drone strikes will not work: the primacy of politics
    The U.S. cannot defeat Al-Shabaab with targeted killings, special 
forces operations and military training. At best this approach will 
degrade Al-Shabaab's military capability and ability to strike domestic 
and foreign targets, but, as we learned in Vietnam and again in 
Afghanistan and Iraq, these efforts are not sustainable unless the 
Somali Federal and State Governments address the chronic political 
infighting, poor governance and corruption that drive communities to 
support, or at the very least tolerate, Al-Shabaab. Yet the most 
significant U.S. efforts are military, and other efforts to promote 
good governance and development are hampered by the lack of a U.S. 
ambassador to Somalia and onerous State Department and USAID security 
restrictions (most U.S. government officials cannot leave the Mogadishu 
airport), as well as poor coordination among external actors.
    What, then, is the most effective way to counter Al-Shabaab? The 
answer is not necessarily more money. Rather it is smarter assistance, 
based on a sound understanding of local political dynamics, that 
employs carrots and sticks to nudge Somali leaders to support 
governance reform and better administration. Otherwise expensive 
technical assistance and training programs may have only temporary and 
limited impact.
    We can draw some lessons from the record. Somalia, which is roughly 
divided into three major regions, can be thought of as a natural 
experiment in terms of how much international assistance--be it money 
or military support--is necessary to promote stability, with Somaliland 
receiving the least, Puntland some more, and South and Central Somalia 
the most. Instructively, Somaliland, which relies the most on local 
political compromise, is the most stable, while South and Central 
Somalia, the region that gets the most international attention and 
military support, is the most insecure.
                   the government is winning, kind of
    Admittedly, the Federal Government of Somalia has made tremendous 
strides since 2010, when it controlled only a small district in 
Mogadishu. Since then it has, with enormous support from the African 
Union Mission in Somalia (AMISOM), pushed Al-Shabaab out of most urban 
centers. The government has also helped establish, sometime grudgingly, 
five federal member states (not counting the self-declared independent 
Somaliland) to provide more local administration. But Al-Shabaab is 
resilient. The gains are fragile and very dependent on international 
military and donor support.
    Popular support for the government also continues to wax and wane. 
The widespread euphoria that greeted the election of a new president, 
Mohammed Abdullahi ``Farmajo'', in February 2017 has been replaced by 
acute anxiety. The huge expectations of change and reform are unmet; 
politics remains as fractured as ever; AMISOM is planning its 
withdrawal at a time when the threat from Al-Shabaab remains potent; 
and many of the country's familiar governance and security challenges 
are compounded by new external and geopolitical pressures.
    Progress in rebuilding the state is fundamentally limited because 
there is no national political settlement and the allocation of power 
and resources is poorly, if at all, defined. (One of the biggest 
problems is the ill-defined division of power between the president, 
prime minister and parliament.) The government has continued to rule 
based on the 2012 Provisional Constitution. Despite much prompting, 
even threats, from international donors, efforts to draft and 
promulgate a permanent constitution have been stymied by disagreements 
and political infighting. The lack of an agreed political settlement at 
the national and federal levels has meant that governance tends to be 
based on ad-hoc deals and arrangements.
    Farmajo's challenges have been compounded by several political 
missteps. He campaigned with a nationalist message, saying he would 
stand up to meddlesome foreign powers, and lost much domestic goodwill 
when the government handed over an Ethiopian-Somali rebel commander to 
Addis Ababa and declared the Ogaden National Liberation Front (ONLF), 
fighting for the self-determination for Somalis in the Somali Region of 
Ethiopia (also known as the Ogaden), a terrorist group.
    Another misstep was an ill-advised decision to authorize a deadly 
December 2017 raid on opposition leader Abdirahman Abdishakur's 
residence in Mogadishu, in which five of his bodyguards were killed. 
This raid was a serious setback for democratization and reconciliation 
processes. Abdishakur claims it was an assassination attempt. The 
government denies this.
    A day after the raid a federal government minister was sent to meet 
with elders of Abdishakur's Habar Gedir clan to apologize and offer 
compensation. The minister admitted ``a mistake occurred''. In the 
absence of an independent probe and with two sharply contrasting, 
highly partisan narratives, the truth may never come to light. 
Irrespective, the government has come out badly. The opposition claims 
the raid reflects the regime's ``growing authoritarian tendencies''.
    These tendencies stem in large part from the pressure, from its 
nationalist support base and even the wider public, to act tough. But 
in seeking to appear tough it is upsetting the unwritten rules of 
governing the fragile state. Instead of building alliances and winning 
new friends, it is antagonizing powerful clan constituencies and 
fomenting new tensions, especially in Mogadishu.
    For example, observers blame federal government official's abrasive 
style and provocative rhetoric for stoking tensions in the disputed 
territories of Sool and Sanaag, where a dangerous military standoff 
between Somaliland and Puntland risks escalating into open conflict.
    In addition, there is an unresolved and knotty issue of whether the 
capital Mogadishu, estimated to have over 2 million inhabitants (out of 
an estimated 14 million for the whole country), should also be its own 
federal state would have been easier to manage had the government used 
more tact and discretion. Instead, Villa Somalia picked a fight with 
then Mayor Thabit Abdi Mohammed, who championed the city's statehood, 
and used rough tactics to have him removed. The mayor's own alleged 
corruption and unbridled ambitions ultimately served as a good pretext 
to fire him, but the manner of his ouster has solidified the opposition 
in Mogadishu and cost the Federal Government huge support.
                               corruption
    Government corruption remains a massive problem in Somalia, which 
is rated the most corrupt country in the world by Transparency 
International. Official fraud, theft and malfeasance have undermined 
decades of international efforts to rebuild a Somali state. Official 
venality is a major recruiting point for Al-Shabaab. Although some 
international donors now give stipends directly to troops (the U.S. 
recently suspended its payments because of corruption and human rights 
concerns), many government soldiers are poorly paid and provisioned. It 
is worth noting that several important areas in the Shabelle river 
valley are now in the control of Al-Shabaab after government troops 
pulled out in protest because some of them have not received salaries 
for months. On 14 December 2017, the U.S. suspended food and fuel aid 
for most of Somalia's armed forces over corruption concerns.
    According to the Somalia Monitoring Group's 2 November 2017 report, 
``despite limited improvements in public financial management, federal 
institutions remain incapable of addressing pervasive corruption. 
Mechanisms established to review Government contracts have continued to 
be circumvented, and the lack of transparency regarding company 
ownership leaves all Government contracts open to concerns of nepotism. 
Government ministries continue to bypass the Treasury Single Account at 
the Central Bank of Somalia, avoiding oversight of their revenues by 
the Federal Government's fiscal authorities. The misappropriation and 
misuse of public land in Mogadishu is ongoing, despite pledges from the 
previous administration to address the problem. The printing of 
counterfeit Somali currency in Puntland continues to undermine economic 
stability and has prompted outbreaks of civil unrest''.
                            federal tensions
    The government has finalized the broad outlines of the federal 
system, comprising five member states (Somaliland continues to insist 
it is independent, and calls for a Benadir state, centered on 
Mogadishu, remain politically contentious). But, the process of federal 
member states creation was often arbitrary, contested by local 
communities, and designed to lock out certain minority clans from 
power. As a result, it has lacked broad legitimacy. It also failed to 
precisely demarcate state borders and the new federal state borders 
clash with traditional notions of clan ``boundaries'' or ``ancestral 
homelands''. Unclear territorial claims increase tensions and feed 
grievances, which can trigger armed conflict.
    Nevertheless, the five existing states have been broadly accepted 
and the government is moving forward--if very slowly--with efforts to 
implement federalism. Unfortunately, the provisional constitution is 
vague about resource and power sharing between the government and 
member states, which has led to chronic tensions between Mogadishu and 
regional capitals.
                          clan reconciliation
    National and sub-national state-building cannot occur without a 
national political settlement and reconciliation. Every Somalia Federal 
Government has paid lip service to reconciliation but balked at crucial 
implementation stages. National reconciliation must not be about 
restoring a romanticized organic relationship among clans but rather 
about fostering peaceful resolution of conflicts, rebuilding cohesion 
and mutual solidarity, encouraging inclusive local governance, 
addressing material resource disputes, and where possible seeking 
hybrid ways to address past crimes. To achieve this, the federal and 
state governments should be co-facilitators of a bottom-up 
reconciliation process, providing resources, security, strategic 
guidelines and oversight, but desisting from attempts to control the 
process.
                  spill-over of middle east rivalries
    There are also increasingly assertive new players trying to 
influence developments in Somalia and all of the Horn of Africa. 
Somalia has traditionally enjoyed financial support from Saudi Arabia 
and Egypt; more recently Turkey, Qatar and the United Arab Emirates 
(UAE) have emerged as big players. Farmajo's pragmatic style and 
preference to keep Somalia out of the feud between Saudi Arabia and its 
ally the UAE, on one side, and Qatar and Turkey, on the other, has had 
limited success. Relations sharply deteriorated with the Saudi-led bloc 
in early 2017, triggering temporary suspension by Riyadh of direct 
budgetary support.
    The Saudis seem keen to avoid severely punishing Farmajo's 
administration. The Emiratis, who have built a diverse portfolio of 
military and commercial interests, with huge stakes to protect, seem 
less constrained. They have greatly stepped up their covert funding of 
opposition politicians and cultivated close direct relations with 
Somalia's federal states. A decision by the states in late 2017 to 
issue a joint communique critical of Mogadishu's neutral position, 
inflaming tensions between Mogadishu and the federal states.
    Suspicion that the UAE is actively fomenting opposition to the 
Farmajo administration triggered a violent crackdown on politicians 
accused of receiving Emirati funds in December 2017. More recently, 
President Farmajo declared illegal a deal that the Emirati firm DP 
World negotiated with Somaliland, and Ethiopia, to upgrade and operate 
Berbera Port. The Lower House of Parliament went further by banning it 
and declaring DP World a threat to the country's sovereignty, 
independence and unity. Also at stake is a $336 million agreement that 
Puntland negotiated with DP World to allow it to run and upgrade Bosaso 
port (a Turkish company operated Mogadishu port).
    Somaliland President Muse Bihi Abdi has described Somalia's 
rejection of the port deal the former signed with Ethiopia and DP World 
as a ``declaration of war.'' An upcoming trip by Farmajo to Qatar--
widely viewed as an attempt to spite the UAE--marks an escalation and 
is almost certain to worsen relations.
                               insecurity
    A year ago, Farmajo promised to prioritize security, rebuild the 
national army and crush the Islamist Al-Shabaab insurgency in two 
years. In May 2017 the government unveiled a national security pact to 
donors at the London conference to address many of the systemic and 
structural challenges that have stymied progress on security. 
Crucially, the strategy was backed by the federal states and Somalia's 
international partners. To complement these efforts, the government 
declared an amnesty that saw a modest increase in the number of high-
profile defections from Al-Shabaab, among them Mukhtar Robow, who had 
been a senior commander.
    Despite these early positive steps, the overall security situation 
is far from improved and the implementation of the security plan is 
much more daunting than anticipated. Al-Shabaab stepped up its attacks 
from the start of 2017. The 14 October 2017 attack at the Zoppe 
Junction in Mogadishu was the deadliest, claiming the lives of over 500 
people. A six-month deadline for the re-integration of 18,000 Somalia 
National Army troops, and the establishment of federal/ regional state 
police departments has since been missed, partly as a result of 
tensions between the national government and the federal states. An 
internal Operational Readiness Assessment commissioned by Prime Minster 
Kheyre highlighted the extent of the dysfunction within the army and 
the security services.
    Against this backdrop, the security challenges the government faces 
are formidable. Al-Shabaab remains resilient (see Crisis Group 
Commentary, ``Somalia's Al-Shabaab Down but Far from Out'', 27 June 
2016, and Crisis Group Briefing, ``Managing the Disruptive Aftermath of 
Somalia's Worst Terror Attack'', 20 October 2017). It controls tracts 
of rural land in south central Somalia and supply routes between towns, 
pursues a steady campaign of car bombings, assassinations and other 
attacks in Mogadishu and has targeted and in some cases overrun 
isolated AMISOM and Somali army bases. Beginning in 2016, a militant 
faction loyal to Islamic State established a following in Puntland 
(see, Crisis Group Commentary, ``The Islamic State Threat in Somalia's 
Puntland State'', 17 November 2016). This group has grown from a few 
dozen in 2016 to as many as 200 this year, according to the U.N. 
Although the Somali Islamic State, is the sworn enemy to Al-Shabaab, 
their growing presence highlights how armed extremists exploit state 
disorder and local tensions to develop safe havens and rebuild after 
otherwise debilitating defeats.
                          the amisom drawdown
    AMISOM played a key role in pushing Al-Shabaab's conventional 
forces from most urban centers, but the mission costs approximately 
$800 million a year and, by protecting the government from most Al-
Shabaab attacks, has perversely reduced the incentive for Somali 
officials to spend the resources and make the necessary political 
compromises to create effective security services able to defeat Al-
Shabaab. Thus last year international donors began the process of 
implementing the mission's ``exit strategy'' and tentative drawdown, as 
well as yet another effort to build up and professionalize the army. 
This work on professionalization is important for Somalia's future 
stability and ought to be assisted, even those efforts are severely 
undermined by endemic corruption and nepotism as well as clan fears 
that the military will be used to enforce the domination of certain 
other clans at their expense (as happened during the rule of President 
Siad Barre, from 1969 to 1991).
    The plan for AMISOM's withdrawal requires a sustainable national 
force to take over security responsibility and mitigate the negative 
effects of regional competition. Plans are to train and equip an 18,000 
strong army with units answering to both the federal and state 
governments. Yet, it is not clear how feasible this plan will be. 
Moreover, without a clearer and institutionalized division of power, 
resources and security responsibilities between the Federal Government 
and federal member states, as well as among federal state 
administrations, current security gains against Al-Shabaab will be 
difficult to sustain.
    Although there have been some attempts to coordinate efforts to 
build the Somali security services, more could be done to harmonize and 
synchronize the efforts of the EU, U.S., U.K., Turkey and Gulf states 
which all are involved in troop training. In addition the U.S. has 
increased drone and special forces operations in an effort to degrade 
Al-Shabaab's military capacity, but increased involvement carries risks 
of delegitimizing the government. More training and equipment could 
help, but increased airstrikes--especially ones that lead to civilian 
deaths--could inflame public opinion and exacerbate clan tensions.
    Complicating U.S. efforts, Al-Shabaab is strategically astute. 
Rather than hold hard-to-defend towns and villages, it has increased 
suicide bombings in Mogadishu and attacks against exposed African Union 
peacekeepers and Somali government forces are as they try to reopen 
Somalia's main supply roads. Currently AMISOM and Somali National Army 
forces are trying to reopen the highway linking Mogadishu to Baidoa 150 
miles to the west. On Friday, Al-Shabaab militants ambushed an AMISOM 
supply convoy about 25 miles north of Mogadishu, killing at least 10 
soldiers and destroying most of the 20 trucks. It was the latest of 
many deadly attacks the militant group has waged against the AU forces.
    While the mission is dangerous, it is also lucrative for individual 
soldiers and their countries. The AMISOM troop-contributing countries 
now want the U.N. Security Council to reconsider its September 2017 
resolution on phased withdrawal and handover of security responsibility 
to Somali security forces. The countries Kenya, Uganda, Burundi, 
Ethiopia and Djibouti now claim, with some grounds, that the 
resolution's timeline is not realistic and would lead to a reversal of 
the gains made by the peacekeepers, but the Security Council is right 
to put the onus on the Federal Government to deliver.
       recommendations to the senate foreign relations committee
    1. Insist the administration of President Donald Trump identify an 
experienced diplomat to become the U.S. Ambassador to Somalia, and 
quickly act on this nomination. Ensure that the ambassador designate 
has the necessary resources, staff and the latitude to robustly promote 
U.S. goals in Somalia. Ideally the ambassador should be in place before 
the embassy in Mogadishu opens in August. Furthermore, require the 
State Department to identify focal points in the Bureaus of African 
Affairs and Near Easter Affairs to coordinate efforts to mitigate the 
destabilizing impact of Gulf state rivalries in the Horn of Africa.
    2. Correct the imbalance of U.S. funding supporting military 
engagement versus diplomatic and development assistance. Appropriate or 
shift money to good governance programs, both at the federal and states 
levels, in Somalia and instruct the State Department and USAID to 
develop an incentives strategy to promote more effective governance and 
administration, as well as seriously tackle corruption.
    3. The U.S. and its allies must use their influence to prioritize 
for Somalis the strengthening and institutionalization of relations 
between the federal member states and Federal Government. They need to 
work together to complete the agreed-upon roadmap and milestones 
designed for Somalia's recovery, including finalizing the permanent 
constitution and federalization process, preparing for direct 
elections, and promoting bottom up reconciliation.

    Senator Flake. Thank you, Dr. Hogendoorn.
    Mr. Hashi, you mentioned that you cannot get to Mars on 
dollar store items, talking about the finances that the 
government has available to it. Those are constricted largely 
because they have been unable to reconcile with the 
international finance institutions in terms of lending or 
future lending. How is that going? Is there any progress that 
is being made in that regard?
    Mr. Hashi. I think the only area that the government can 
get a passing grade is interactions with the international 
financial institutions. The IMF actually set certain milestones 
for the government to increase its local revenue generation, 
and it has been doing enough and actually winning the respect 
of the IMF, from the World Bank.
    But the government only controls Mogadishu. The rest of 
Somalia is controlled by other regional states who control 
ports and airports, and they use whatever resources they get to 
actually run the regional states within Somalia. So on its 
taxing the citizens of Mogadishu who are resisting actually 
excessive taxation, but overall, the government has to take 
control of the entire country and have unified taxation system.
    And the other thing is Somalia has moved from a unitary 
state to a federal system. But the laws are not set up to 
ensure, you know, fiscal federalism, where the government can 
collect taxes, control the country, and distribute and share 
and the like. So it is just able to collect about $11 million a 
month in Mogadishu airport and port, but that is not enough to 
provide service. Whatever money it gets, it just goes to 
salaries to the police and--
    Senator Flake. You mentioned that 99 percent of revenue 
goes straight to salaries for civil servants. If those salaries 
are not paid, what happens? It would just make life easier for 
Al-Shabaab to recruit and whatnot.
    Mr. Hashi. Yes. Not only that but just being about 50 
employees for a particular ministry and Mogadishu will not make 
the Somali Government look like a government. It needs to 
provide services. And the Somali population is about 12 
million. 5.4 million of them, according to the United Nations, 
need help. Seventy percent of them are the youth under 30. They 
do not have employment. So the government needs more than $270 
million to look like a government.
    Senator Flake. Thank you.
    Dr. Bacon, in my office, you talked about visiting Somalia 
years ago and then just recently. Can you talk about what are 
the differences? What did you see? You talked about going in 
some of the rural areas, and as has been mentioned by a few of 
you, Al-Shabaab is actually delivering services, meting out 
justice, establishing some semblance of order. How much of a 
problem is that for a government to retake those areas or to 
compete with that?
    Dr. Bacon. I think it really has most clearly emerged how 
central the justice piece is to the way forward in Somalia. We 
do talk a lot about the security sector and the army and the 
police, and those all are important.
    But one of the things that Al-Shabaab has really been able 
to distinguish itself through is its courts. And people are 
using its courts who do not necessarily even support the 
organization or its aims. Its courts are seen as fairly 
efficient, relatively uncorrupt, and relatively fair. And so 
that is one of the ways that it is able to supplant the still 
fragile authority of the Somali federal government.
    And it seems to me that that has to be a really key 
component moving forward because justice in that kind of 
insecure situation is really central to security, and rather 
than justice following security, it seems like justice needs to 
be part of the security picture. And that I think is really one 
of the things that has changed over time, and that is one of 
the things that brought the rise of the Islamic courts and then 
Al Shabaab was this really central piece of justice. So in my 
view, that is a critical piece of what Al-Shabaab has been able 
to provide much more so than its actual ideology.
    Senator Flake. Thank you.
    Mr. Yarnell, you mentioned the U.S. admitted and resettled 
about 10,000 refugees in 2016 compared with only 177 over the 
course of the past five months. Tell us more about the U.S. 
role and our admission of refugees or what kind of impact that 
has on some of our allies and neighbors in terms of their own 
ability or willingness to accept refugees.
    Mr. Yarnell. Sure. That is a very important question.
    As I mentioned, resettlement exists as an option for the 
refugees who are the most vulnerable who may never be able to 
return home because of particular threats and who also face 
threats in their place of refuge, for instance, in Kenya. So 
UNHCR, the U.N. refugee agency, identifies those who 
particularly need resettlement as an option, and then they move 
through the screening and all the security and health checks 
before they are resettled. So for those who have been 
identified and who face those particular threats, because of 
the new measures in place, the option to be resettled has 
essentially been closed because the numbers have dropped so 
dramatically. And at the same time, because it is moving so 
slowly, the U.N. has stopped even identifying new people for 
resettlement to the U.S.
    I think more generally it reverberates through the camp. 
People who thought that resettlement may be an option see that 
that is no longer there. I am hearing people who work in Dadaab 
that more people are returning to Somalia prematurely because 
they feel like they have no other option. And at the same time, 
when we are asking Kenya to do more, Ethiopia to do more, other 
countries to host hundreds of thousands of refugees, it is 
difficult for us to ask them to hold up that commitment when we 
are closing the doors on refugees ourselves.
    Senator Flake. Thank you.
    Dr. Hogendoorn, what impact have neighboring countries and 
not so neighboring countries like China had on the political 
situation and stability in Somalia? Obviously, the African 
Union with AMISOM is supporting troops. What about others 
outside of the area, particularly China?
    Dr. Hogendoorn. As I have testified, the real problem is a 
coordination problem. You have lots and lots of different 
actors who are trying to exert influence in Somalia. They may 
all want to stabilize the country, but I think that there are 
significant disagreements about how to stabilize the country 
and, to some degree, who should be leading that stabilization 
process.
    China has been a significant player in that it is starting 
to support the security services. Obviously, the African Union 
has been an incredibly important actor in providing AMISOM, 
which has cost lots of troop-contributing countries many, many 
hundreds of lives and certainly has cost the international 
community hundreds of millions of dollars a year.
    I still contest that right now the biggest problem really 
is that the Horn of Africa in general and Somalia in particular 
has become a proxy battleground for influence for a number of 
Middle Eastern countries, particularly the United Arab Emirates 
and Qatar, but others as well. And unfortunately, a lot of that 
influence is being exerted through money and through support 
that is very difficult to observe, but that is really fraying 
at the delicate, fragile consensus that exists both in 
Mogadishu and also between Mogadishu and these federal member 
states.
    Senator Flake. Thank you.
    Senator Booker.
    Senator Booker. I am going to defer to Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair, and thank 
you, Mr. Ranking Member, for the opportunity to ask a few 
questions.
    I wanted to start just by thanking you, Mr. Yarnell, for 
the work of Refugees International and for the humanitarian 
community working to address such a horrific plight and 
challenge, complicated both by food production and the conflict 
of war.
    I want to take my time, however, to address some of the 
issues regarding Al-Shabaab. And, Mr. Hashi, you refer to, 
quote, ``petrodollars should be used to avert starvation not to 
put this fledgling country in the middle of a geopolitical 
power play.'' And you refer to the dispute between United Arab 
Emirates and Qatar. And Dr. Hogendoorn has referred to this 
proxy challenge as well.
    Exactly how are they weighing in and complicating the 
conflict?
    Mr. Hashi. Thank you. I think I am really exaggerating if I 
say that the threat emanating from the Gulf countries is as bad 
as the threat of Al-Shabaab because the money they are pouring 
into the system and the rivalries they are supporting could 
actually unravel the entire Federal Government institutions as 
we speak today because even today, about a hundred or so MPs--
they submitted motion--are going to unseat the number two in 
the country. There is another rival motion and some MPs are 
going to unseat the Prime Minister and his cabinet. Somaliland 
and Somalia--Somaliland is up in the north. It wants to secede. 
There has been ongoing negotiations between Somalia and 
Somaliland.
    Because of the company in the UAE, Dubai World, taking over 
Berbera Port in the north in Somaliland, the Somali parliament 
said 2 days ago--that company is persona non grata in Somalia. 
They just are barred from Somalia. As a result, the Somaliland 
leadership now are in Dubai or Abu Dhabi.
    So the entire country actually is bubbling and if there is 
actually a big bang in the next few weeks, I will not be 
surprised solely because of the energy and the effort and the 
meddling of those countries while Somalis were experiencing 
famine in 2012 and even in 2016, and our Arab brothers up 
there--they were not helping us much. So the least they can do 
is to just stay away from our country so at least you can 
stitch this country together.
    Senator Merkley. So neither of these two countries are 
funding Al-Shabaab, but they are funding different groups of 
politicians and different movements that are destabilizing the 
effort to have a coherent political process.
    Mr. Hashi. Yes. They are supporting Somali political 
parties in the region and that can destabilize the entire 
system.
    Senator Merkley. One the issues that is often raised and 
has been raised here is in regard to corruption. You served in 
the government. You were there firsthand. We know how difficult 
it is to establish any nation going forward if there is not a 
system and an ethic that is about the success of the country 
and not about individuals taking payments and being steered in 
different directions. It appears like so far the efforts to 
take this on have been ineffective. What more can be done?
    Mr. Hashi. I think it requires political leadership at the 
top to have zero tolerance for corruption, but also the reason 
corruption is not a big problem in many parts of the world is 
because you have systems in place. And when there is no 
effective institutions and the judiciary, as somebody just said 
earlier, just human beings, when they see cash, usually 
something bad happens. So a system actually can deal with that. 
And unfortunately, the system is very weak.
    Senator Merkley. Thank you.
    And, Dr. Bacon, it has been noted that AMISOM and Somali 
forces have driven Al-Shabaab from 80 percent of the territory 
once controlled. Meanwhile, we have testimony from Mr. Hashi 
that the capital has never been more insecure. And AMISOM--the 
plan is to start reducing their forces. Is this phased 
reduction premature or dangerous? Is the force right-sized now 
or does it actually need to be larger?
    Dr. Bacon. I think one of the tricks about assessing the 
situation is measures like the amount of territory Al-Shabaab 
controls can be misleading when you look at it compared to its 
peak. I mean, yes, the group controls significant strongholds 
in the rural area, and it also exerts a pretty pervasive 
influence over other parts of the country, including Mogadishu. 
And it does so, as I mentioned, through the courts. It does so 
through fairly effective taxation, something the government has 
struggled to do. It has a much more pervasive influence 
throughout Somalia than its territorial holdings would suggest. 
And that is to say that, yes, there is the issue of as long as 
AMISOM stays, there is a morale hazard that things that the 
Somali Government and Somali forces need to do are not done 
because AMISOM is doing them.
    Having said that, a premature AMISOM withdrawal in my view 
could lead to the collapse of the Somali federal government, 
but would certainly lead to expansive gains by Al-Shabaab. The 
group is still sufficiently strong that it could conquer much 
more territory and expand its influence significantly if AMISOM 
withdraws prematurely.
    Senator Merkley. You have mentioned that the courts they 
provide meet with some significant acceptance or even 
appreciation. And just as you were talking, I could have taken 
your testimony and put it on top of the Taliban at one point in 
Afghanistan. And this also accentuates the need for the 
government to be able to be an even better system. But the 
corruption I just mentioned undermines faith in the public 
institutions.
    How do we overcome this?
    Dr. Bacon. I have been struck by those parallels myself 
between the Taliban and Al Shabaab. There is no Pakistan, 
though, in the case of Al-Shabaab. So you do not have the kind 
of external problem to the same degree, although you clearly 
have other ones.
    I think one of the things that Al-Shabaab is able to 
accomplish is its courts are considered fairly credible and 
legitimate, and it also has the coercive power that people will 
not reject its rulings. They fear it enough that it will punish 
anyone who does not adhere to its rulings. So it has got a 
combination of credibility and coercion that is pretty 
effective in delivering the services that it does and that is 
difficult, to some degree, for a government to do, to exert 
that kind of coercion in the same way. But ultimately--you are 
right--there is something of a competition between Al-Shabaab 
and the government in some of these realms like justice, and 
the government has to win that competition in order to really 
become a sustainable, credible government.
    Senator Merkley. Thank you all very much for your testimony 
and bringing your expertise to bear on this challenge.
    Thank you.
    Senator Flake. Thank you.
    Senator Booker.
    Senator Booker. So, again, I am grateful, as Senator 
Merkley said, for you all being here.
    I am just trying to get this from a larger perspective, and 
I think, Dr. Bacon, your name is very intimidating to me as a 
vegan.
    [Laughter.]
    Senator Booker. But I will go forward anyway.
    That competition between the things that Al-Shabaab is 
providing--if I could synthesize, and you guys can tell me if 
this is too simplistic, but I am really looking for a governing 
strategy for this committee about the things that we need to be 
putting influence on. And I appreciate, Dr. Hogendoorn, you 
were very specific at the end of your testimony. This is what 
you guys should do in your three very good points. But tell me 
if I am getting this right.
    One of the most important things I think Mr. Hashi was 
saying is that we are not going to win--I should not say 
``win'' as a direct competition, but we are not going to 
succeed unless we have a strong, functioning government in the 
country. And it seems to me--I am just sitting here taking my 
notes--that there are really five things that are undermining 
the success of the government.
    The first one is just the ability to provide security for a 
nation, fundamentally important.
    The second thing is these external threats. I would even 
call them environmental threats. We have a serious problem with 
global warming that is causing just drought after drought, and 
we are about to have what seems to be another serious drought 
that is going to add to the humanitarian crisis, undermining 
the government's legitimacy.
    The next thing, Mr. Hashi you just said very plainly, is a 
government of that size just does not have the kind of 
resources it needs to provide for its residents, which drives 
another one of the five things I would say, which is just the 
outright corruption. And then you add to that the geopolitical 
issues or you have the competitions between Qatar and the UAE.
    Those seem to be the five things. And you have an Al-
Shabaab that is capitalizing on a lot of these things by, as 
you said, Dr. Bacon, providing less corruption, more fair, 
providing resources, providing security.
    And so the pressure points that I would be looking for as 
strategies from this committee would be what can we do to help 
with those things because, again, I have some serious concerns 
about our military strategies even though our increasing drone 
strikes obviously has had collateral benefits of adding to 
security, but it is not going to win this. This is not going to 
be won by a military. Nor would I really want to see if there 
are things we are not doing to achieve these ends, putting more 
American lives in jeopardy and, frankly, doing things that 
often I think in the long run add to more security concerns 
when you fly drones and have collateral civilian damage. Now, 
pair that with, again, the fact that AMISOM is saying they are 
going to be pulling out.
    So can I just deal with these things real quick?
    Number one, the humanitarian crisis. Mr. Yarnell, that is 
serious and pending. And you are telling me that the things 
that we should be thinking about, if I hear you clearly, is one 
is humanitarian aid is making a difference, and two, America's 
moral authority of shutting down our borders to Somali 
refugees--these are two things that this Senate committee and 
the United States Senate could be dealing with, making sure we 
are putting resources in to deal with an agonizing humanitarian 
crisis. And number two is, hey, step up on this issue of 
refugees. Stop letting the Canadians out-American us.
    Mr. Yarnell. As a dual Canadian-American, I appreciate that 
reference.
    Senator Booker. Yes.
    Mr. Yarnell. No. You are exactly right. Providing robust 
humanitarian assistance, to use a phrase that others have used, 
is that it is not just the right thing to do, it is the smart 
thing to do. The assistance provided by Congress saved lives. 
At the same time, as others have mentioned, when the U.S. is 
putting tremendous resources into supporting the Somali 
Government and trying to eradicate corruption and help it 
expand its governance, defeat Al-Shabaab, if the country 
experiences widespread famine, that drops the bottom out of 
those efforts. So I think that you will achieve multiple 
objectives by responding with a robust humanitarian--
    Senator Booker. Anything else I am missing that you would 
advise us to deal with this humanitarian crisis in the coming 
drought that I think we are going to see again? Anything else 
that we should be thinking about before Senator Flake and I go 
on to the next thing of the day?
    Mr. Yarnell. I just cannot emphasize enough the positive 
impact the funding played last year. I know that there is often 
funding fatigue, but it is not the kind of thing where you can 
just provide assistance now and then the next year will be 
fine. The successive rains have been eroding the capacity of 
Somalis to respond to drought. And so it is going to take 
multiple successful rains before people can get back to their 
previous pre-crisis levels. So to think that just because last 
year the funding was strong that we are out of the woods I 
think is shortsighted. So just keep that message strong.
    Senator Booker. Anybody else want something to the 
humanitarian issue? That is my takeaways right now. Okay, fine.
    These two I would maybe say the same solution: the 
rivalries in the region, this proxy war that seems to be 
playing out in details, as well as the corruption. To me, we 
are not going to deal with those things but for great diplomacy 
coming from the United States of America. That has got to be 
the way you deal with this is having a diplomatic strategy that 
is focused on diminishing the rivalries going on between 
Turkey, Saudi Arabia, UAE, Qatar. All of this playing out in 
that region is really going to take a diplomatic effort beyond 
the staff capacities of Senator Flake and myself. Correct? Yes. 
Okay.
    And then the same thing with corruption. I think that that 
is probably two things. One would be, again, having an 
ambassador there in place to have straight talk, carrot-stick 
talk with the political leadership in that country, and I think 
Mr. Hashi is pointing out there is also a resource problem that 
in some ways is fueling the corruption. Am I correct in 
assuming that the American role that would most be desirable 
would be focusing on diplomacy and resources to help with 
institution building that can insulate from corruption? Mr. 
Hashi?
    Mr. Hashi. Thank you.
    Yes. If all the problems that you have mentioned and others 
listed--if they are not dealt with and solve them rather 
urgently, Al-Shabaab will be the beneficiary of this. Basically 
this government is just so weak, it just cannot withstand all 
those different pressures coming in.
    And I think one thing the Somalis can do--Somalis, what 
they can do is to just get the politics right. If they just 
actually understand this congested global system where the 
attention of the U.S. is required in many different places or 
the attention of others or the U.N. or whatever--they need to 
take advantage of the opportunities they have or the attention 
they have like the one that you are giving to Somalia today and 
just do the things they can do. They can actually fix issues of 
corruption and others.
    Somebody was talking about SNA, the Somali National Army. I 
think, yes, maybe there is corruption of the leadership, but 
the rank and file--they have just paid so much, and so many of 
them have died. In the past 6, 7, 8 years, maybe more than 
10,000 people died fighting with Al-Shabaab. And there are 
units that the U.S. supports that has been effective, were 
effective. So with mentoring, you know, hands-on help with 
certain institutions, Somalis can do their part, and the 
international partners can also help.
    So Somalis need to get the politics right, stop unnecessary 
squabbling. The U.S. and others can actually tell the external 
actors their interference is enhancing and helping Al-Shabaab. 
It is actually super urgent otherwise. The Somali government 
system is just weaker and weaker, and that just makes Al-
Shabaab the winner. And also extra help. You know, we do not 
have to do the same thing again and again for 20-30 years and 
then expecting things to improve. It will not improve whatever 
we are doing together as Somalis and our international 
partners.
    Senator Booker. So just to wrap that up then, clearly 
security is needed. There is a threat if AMISOM ramps down too 
quickly, but some of the aid that we are providing in terms of 
military assistance is helping the Somali National Army. But 
again, I think Senator Flake said this well, it does really 
remind me of the challenges in Afghanistan in the sense that if 
a government cannot provide security, it undermines the 
legitimacy of that government and its effectiveness.
    Look, I want to wrap up. If Senator Flake will allow me one 
last area, just some insight for me because I think that the 
former Secretary of State was focusing on just the influence of 
China in the region and some worries I have about creating 
situations where there is a greater African debt in general. 
But is that a concern? If I look at a strategy for Somalia, the 
Chinese are playing a constructive role for the ends that I 
have outlined, or is that something that you would say, hey, 
Cory, red light here? You should be concerned and focused on a 
pernicious influence when it comes to the Chinese in Somalia. 
Anybody can take that.
    Mr. Hashi. I would just say China is not in Somalia yet. 
They happen to be in Djibouti and in the neighborhood, but if 
things settle down, I am sure they will be close to us.
    Senator Booker. So I just want to say in conclusion, way 
over my time, but I just have some concerns that we do not have 
a strategy coming from the State Department and the 
administration. And that lack of strategy and doubling down on 
doing the same things, just trying to do more of the same 
things is not necessarily going to be producing the results 
that we need. Clearly, I think that from this, Senator Flake 
and my teams are starting to see a strategy for the Senate that 
we can advocate with our colleagues.
    But it is a serious alarm for me--and Senator Flake has 
heard me on this rant before--that we do not have State 
Department officials here. We are not able to ask them if they 
have a strategy. I do not know if they do. They do not have a 
diplomatic reach there. It raises serious alarms that America 
could be more precise in achieving the ends for the great 
people of Somalia, and I just want to ring that bell one more 
time that this is very, very troublesome to me that we have an 
area of the world that is in serious crisis, from a 
humanitarian crisis, environmental crisis, and more immediate 
for the United States of America serious security concerns for 
our country as well as theirs. And I am hoping that we will see 
with the new Secretary of State perhaps a concern for Africa, 
from the Congo to Somalia to South Sudan, just not having the 
diplomatic resources necessary to help advance the cause of our 
country, as well as the countries I have mentioned.
    With that, Senator Flake, I am through.
    Senator Flake. Well, thank you.
    And picking up on what Senator Booker said on our 
commitment and the State Department's commitment, Dr. Bacon, 
you spent a good deal of time at State. Are there career 
Foreign Service officers who are capable who are willing to 
serve as Ambassador to Somalia?
    Dr. Bacon. I have no doubt that there are both of those 
things there, people who are willing and capable. And I could 
not agree more that having strong diplomatic presence at this 
particular juncture is absolutely essential. It is essential 
particularly because of the external meddling. It is essential 
because you have this conflict between the federal member 
states and the Federal Government. U.S. leadership and 
diplomacy is absolutely essential to this process.
    Senator Flake. Is it concerning to you? Dr. Hogendoorn, I 
will ask you this. Is it concerning to you, and does it send a 
signal we do not want to send to our allies and partners in 
this, that we have not, one year into this administration or 
beyond a year, named an Assistant Secretary for Africa or 
filled envoy positions or ambassadorships?
    Dr. Hogendoorn. Well, I certainly think it sends a strong 
signal as to how important Africa is considered by the 
administration, and certainly I hope that is rectified very 
quickly.
    Just to add to what Dr. Bacon was saying, I do also think 
it is important to note that while we are all very, very 
concerned about protecting U.S. diplomats when they are in the 
field, there is a huge problem when it comes to working in 
Somalia with these security restrictions that diplomats face. 
Currently most U.S. officials, particularly from the State 
Department and USAID, are confined to the airport. They can, in 
fact, not even present their credentials to the president 
because they cannot travel to the presidency. Mark travels 
throughout Somalia. I have traveled throughout Somalia. 
Abdirashid lives in Mogadishu. I imagine Dr. Bacon has traveled 
extensively through Somalia.
    We are--or at least the State Department is ceding this 
entire field to the DoD and the intelligence community, which 
is one reason why I think the U.S. Government is focusing most 
of its efforts on those sectors of the U.S. foreign policy 
establishment. And I think that is a real question that the 
Senate needs to struggle with in terms of how do we develop a 
more sophisticated diplomatic and political strategy to help 
the Somalis rebuild their state.
    Last but not least, because of this, what is also happening 
is that most of the support that is going to the Somali Federal 
Government stays in Mogadishu, which is one of the reasons why 
we are seeing these struggles in trying to expand state 
administration and services in the federal member states' 
capitals, in those areas where they really are at the front 
line of the battle to fight Al-Shabaab and its influence in 
rural areas.
    Thank you.
    Senator Flake. Thank you.
    I know we both have to get to some other hearings, but one 
other question.
    We referenced Afghanistan here. One thing that we have 
found in Afghanistan over the years is what was mentioned by 
somebody here, that there is incentive, that those in 
government in Somalia take advantage of the fact that AMISOM is 
there. It allows continuance of the status quo. It is not bad 
for some.
    With that in mind, the 2020 date in terms of AMISOM's 
departure--how realistic is that? Is that needed simply because 
we have to move on and the security services have to take it 
upon themselves? Or what is your assessment of that 2020 date, 
Dr. Hashi?
    Mr. Hashi. I think the 2020 date was not meant to be just a 
one-time pullout of AMISOM in Somalia. It is supposed to be a 
gradual process where every year one- or two-thousand leaves. 
Personally we are of the view it is not a bad idea because then 
the Somali SNA can get the attention and the support it 
requires. But it seems that AMISOM wants to stay on because 
they understand the insecurity that prevails throughout 
Somalia. But I just would say for the record, AMISOM paid 
dearly and they really helped liberate securing and also giving 
space to Somali politicians. It is up to Somalis to step up to 
the plate and build those security institutions in Somalia.
    Senator Flake. Dr. Bacon, do you have any thoughts on that?
    Dr. Bacon. I agree that it creates a perverse incentive 
structure and that there is merit to thinking about how to 
reduce that.
    Having said that, my perception is that the withdrawal has 
mostly been driven by concerns about who is going to fund this 
force. It has not been driven by the actual conditions on the 
ground, the capability of the Somali National Army, or the 
reduction of the threat from Al-Shabaab. So given that it is 
more of a financial consideration than a security one, I have 
concerns with the 2020 date. It seems premature.
    Senator Flake. Any thoughts from the refugee angle?
    Mr. Yarnell. Absolutely. I mean, one of the key lessons or 
takeaways from the 2011 famine compared to what is happening 
now is that in 2011 the government controlled very limited 
territory, and many of the people who died during the famine--
it is because they were walking for hundreds of miles to get 
across into Ethiopia and Kenya, whereas now, because the 
government, with AMISOM's support, controls more cities in the 
country, Somalis travel less distance to get assistance where 
aid workers have access. So if you have a premature withdrawal 
of AMISOM, if you have Al-Shabaab regain territory, fewer areas 
of access for aid workers to reach, I think the potential for 
another outflow of Somalis into neighboring countries is real.
    Senator Flake. Doctor.
    Dr. Hogendoorn. Well, I do not want to dismiss the threat 
that is Al-Shabaab. Yet, at the same time, Al-Shabaab is 
probably, if you talk to most experts, somewhere in the 
neighborhood of 5,000 to 10,000 troops in total. So it is not a 
question of is Al-Shabaab that strong? It is a question of why 
is the government so weak? And I think again that has to do 
with the politics of it and the dysfunctions that the political 
infighting are creating both within the government as a whole 
and within the SNA specifically.
    There are very poor parts of Somalia where they get the 
politics right, where there is very little Al-Shabaab presence, 
where they get relatively little assistance from the United 
States Government or others.
    So, again, I am not saying we should cut support for the 
Somali Government or certainly not for refugee programs, but I 
think we do need to send a message to Somali politicians that, 
as Abdirashid says, they need to step up to the plate, and if 
they do not, there are going to be consequences.
    Senator Flake. Well, thank you all for attending today and 
providing us with the benefits of your expertise, all of you. 
This has been helpful to us and I am sure other members of the 
committee who will read the testimony as well.
    The record will remain open until the close of business 
tomorrow. I ask the witnesses to respond as promptly as 
possible, and your responses will be made a part of the record.
    With the thanks of the subcommittee, this hearing is now 
adjourned.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]
    
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Dr. Tricia Bacon to Questions 
                    Submitted by Senator Cory Booker

    Question. In your opinion, what risk does this expanded military 
authority pose to U.S. forces being drawn in to local rivalries that 
have nothing to do with our efforts against Al Qaeda?

    Answer. Military Operations Against Al Shabab--The United States 
has conducted military strikes in Somalia since 2007 against members of 
Al Qaeda and Al-Shabaab, under the justification of the 2001 
Authorization for Use of Military Force.
    In March 2017, President Trump declared parts of Somalia ``areas of 
active hostilities'', which further expanded and devolved the authority 
to allow DoD to conduct strikes ``in collective self-defense of Somali 
partners.''

    I have been concerned about the use of this authority for the 
potential justification of strikes against entities not associated with 
Al-Shabaab or Al Qaeda, should partner Somali forces come under attack 
from, for example, local rivals, as was reportedly the case on 
September 28, 2016. In this incident, U.S. forces working with the 
Puntland Security Forces (PSF) launched a strike against the PSF's 
rival militia, not against Al-Shabab.

                                  [all]
</pre></body></html>
